<html>
<title> - THE ECONOMIC OUTLOOK</title>
<body><pre>[Senate Hearing 111-669]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-669

                          THE ECONOMIC OUTLOOK

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2010

                               __________

          Printed for the use of the Joint Economic Committee







                  U.S. GOVERNMENT PRINTING OFFICE
58-197                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Carolyn B. Maloney, New York, Chair  Charles E. Schumer, New York, Vice 
Maurice D. Hinchey, New York             Chairman
Baron P. Hill, Indiana               Jeff Bingaman, New Mexico
Loretta Sanchez, California          Amy Klobuchar, Minnesota
Elijah E. Cummings, Maryland         Robert P. Casey, Jr., Pennsylvania
Vic Snyder, Arkansas                 Jim Webb, Virginia
Kevin Brady, Texas                   Mark R. Warner, Virginia
Ron Paul, Texas                      Sam Brownback, Kansas, Ranking 
Michael C. Burgess, M.D., Texas          Minority
John Campbell, California            Jim DeMint, South Carolina
                                     James E. Risch, Idaho
                                     Robert F. Bennett, Utah

                    Andrea Camp, Executive Director
               Jeff Schlagenhauf, Minority Staff Director














                            C O N T E N T S

                              ----------                              

                                Members

Hon. Carolyn B. Maloney, Chair, a U.S. Representative from New 
  York...........................................................     1
Hon. Kevin Brady, a U.S. Representative from Texas...............     3
Hon. Elijah E. Cummings, a U.S. Representative from Maryland.....     5
Hon. Michael C. Burgess, M.D., a U.S. Representative from Texas..     7
Hon. Vic Snyder, a U.S. Representative from Arkansas.............     9
Hon. Ron Paul, a U.S. Representative from Texas..................     9
Hon. Charles E. Schumer, Vice Chairman, a U.S. Senator from New 
  York...........................................................    11
Hon. Sam Brownback, Ranking Minority, a U.S. Senator from Kansas.    12

                                Witness

Hon. Christina D. Romer, Ph.D., Chair, Council of Economic 
  Advisers, Washington, DC.......................................    12

                       Submissions for the Record

Prepared statement of Representative Carolyn B. Maloney, Chair...    56
    Chart titled ``Quarterly Change in Real GDP''................    58
    Chart titled ``Quarterly Change in Private Payrolls''........    58
Prepared statement of Representative Kevin Brady.................    59
    Chart titled ``Forecast vs. Reality, Unemployment Rate (%): 
      Actual vs. Stimulus Projections (2009-2014)''..............    61
    Chart titled ``Job Gains & Losses by Congressional Control''.    62
    Chart titled ``Forecast vs. Reality, Change in Non-Farm 
      Payroll Jobs, February 2009 to June 2010''.................    63
Prepared statement of Representative Michael C. Burgess, M.D.....    64
Prepared statement of Dr. Christina D. Romer.....................    66
Council of Economic Advisers' report titled ``The Economic Impact 
  of the American Recovery and Reinvestment Act of 2009''........    77
Submitted by Representative Burgess: Letter dated June 21, 2010 
  from Ivan G. Seidenberg and James W. Owens to Hon. Peter R. 
  Orszag followed by the Business Roundtable report ``Policy 
  Burdens Inhibiting Economic Growth''...........................   132

 
                          THE ECONOMIC OUTLOOK

                              ----------                              


                        WEDNESDAY, JULY 14, 2010

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:03 p.m. in Room 
106 of the Dirksen Senate Office Building, The Honorable 
Carolyn B. Maloney (Chair) presiding.
    Representatives present: Maloney, Hinchey, Cummings, 
Snyder, Brady, Paul, and Burgess.
    Senators present: Schumer, Klobuchar, Brownback.
    Staff present: Andrea Camp, Gail Cohen, Colleen Healy, 
Jessica Knowles, Jane McCullough, Jeff Schlagenhauf, Robert 
O'Quinn.

OPENING STATEMENT OF THE HONORABLE CAROLYN B. MALONEY, CHAIR, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Chair Maloney. We will call the meeting to order. We just 
had votes, so we are a few seconds late, but I want to thank 
everyone for coming, and particularly to welcome Dr. Christina 
Romer, the Chair of the Council of Economic Advisers, and thank 
her for her testimony today.
    The Council of Economic Advisers and the Joint Economic 
Committee were both created by the Employment Act of 1946 and 
share an important history of providing the White House and 
Congress with an analysis of economic conditions and economic 
policy. I understand that you joined the Vice President this 
morning with an announcement on your report, and we are so 
thrilled you will be testifying today.
    Our hearing is on the economic outlook, as well as the 
impact of the Recovery Act, on the economy. In the first 
quarter of 2009 when the current Administration took office, 
the economy was facing the worst economic crisis since the 
Great Depression: GDP fell by 6.4 percent, the fastest rate in 
almost three decades; monthly employment losses were higher 
than any seen since after World War II--in the first quarter of 
2009, an average of 753,000 jobs were lost each month.
    As you pointed out last fall, Dr. Romer, the shocks that we 
felt during this recession were greater and more severe than 
the Great Depression.
    As a result of the Recovery Act and other targeted spending 
programs passed in the 111th Congress, the economy has 
recovered over the last year.
    Private-sector jobs were created in every month of 2010, 
for six straight months. And GDP grew for three straight 
quarters, with forecasts of growth continuing for a fourth 
quarter.
    As the Chair of the JEC, I have learned how valuable charts 
can be to present the story, and here we have it in red, white, 
and blue--the quarterly change in real GDP. The red is the 
former Administration, and you see the progress in the blue 
here is this current Administration.
    And the quarterly change in private payrolls, as you see, 
in the last month are up. We are trending in the right 
direction.
    I am especially pleased that you are appearing before us 
today before the JEC transmits its mandated response to the 
Economic Report of the President (ERP). Your testimony here 
today will inform us as we put the finishing touches on the 
report that we are literally working on around the clock to 
finish.
    Since January, the JEC has been laser-focused on job 
creation, holding numerous hearings and issuing a number of 
reports on this topic. While the economy has expanded, 
consistent with the ERP's predicted growth for the first half 
of 2010, I worry that this recovery is still very, very 
fragile.
    It is clear that some of the differences between this 
Recession and previous recessions might endanger this very 
fragile recovery.
    First, although the unemployment rate has been higher in 
previous recessions, the long-term unemployment rate--that is, 
workers looking for work for more than six months--is at 
historically high levels.
    Second, the median duration of unemployment is almost six 
months, which means that the typical worker searches for six 
months before finding a job or possibly giving up on his or her 
job search.
    Finally, state and local governments are experiencing 
significant budget gaps as property and income tax revenues 
have fallen while aid to unemployed families has spiked and 
demand for public education has risen.
    In order to spur the hiring process, it is clear that 
additional measures must be taken to create enough jobs for the 
nearly 15 million unemployed.
    I am dismayed by my colleagues who are listening to the 
political siren's call of short-term cuts to the deficit 
instead of heeding the economic imperative of robust job 
creation. Make no mistake: the national debt is a serious 
challenge for our economy. We need to carefully craft a plan 
that is smart, effective, and fair.
    A long-term strategy on debt reduction is essential for a 
strong economy for generations to come. And as Chairman of the 
Board of the Federal Reserve System, Ben Bernanke told the JEC 
earlier this year when he stressed the need for sustainable 
fiscal balance, and I quote: ``. . .maintaining the confidence 
of the public and financial markets requires that policymakers 
move decisively to set the federal budget . . . toward a 
sustainable fiscal balance.'' End quote.
    However, efforts to translate this need into short-term 
spending cuts--especially cuts in unemployment benefits--have 
moved the deficit battle into the homes of the unemployed. This 
is bad economics and bad public policy.
    Dr. Romer, we want to thank you for once again coming 
before us. We look forward to your important report, and to 
your testimony today.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 56.]
    [Chart titled ``Quarterly Change in Real GDP'' appears in 
the Submissions for the Record on page 58.]
    [Chart titled ``Quarterly Change in Private Payrolls'' 
appears in the Submissions for the Record on page 58.]
    Chair Maloney. Thank you. And I now recognize for five 
minutes Mr. Brady. He will be followed by Mr. Schumer for five 
minutes, and other Members for three minutes.
    Thank you.

    OPENING STATEMENT OF THE HONORABLE KEVIN BRADY, A U.S. 
                   REPRESENTATIVE FROM TEXAS

    Representative Brady. Well, Madam Chairman, I am pleased to 
join in welcoming the Chair of the President's Council of 
Economic Advisers, Professor Christina Romer, before the 
Committee this afternoon.
    While I often disagree with her advice to the President, I 
am always appreciative of how accessible you are to this 
Committee.
    On November 2nd, the American people will judge the 
economic policies of President Obama and Congressional 
Democrats, and may well direct a mid-course correction, much as 
professors do with their students at mid-term.
    President Obama took office under unfavorable economic 
circumstances, but so did Franklin Roosevelt and Ronald Reagan. 
The question is: Has the White House met its economic promises? 
And are we positioned for long-term growth?
    Economists, job creators in the private sector, and 
families should question: Have President Obama and 
Congressional Democrats spurred private investment in job 
creation with their stimulus spending? Or have their policies 
added costs and uncertainty that have weakened the recovery?
    Have President Obama and Congressional Democrats met our 
demographic challenges and improved our long-term economic 
prospects? Or have they diminished them through an 
ideologically driven expansion of the size and scope of the 
Federal Government, higher taxes, burdensome new regulations, 
and a reckless increase in federal debt?
    To help answer these questions, let us examine the record 
as measured by the standards that the White House has set for 
itself and for the country.
    In January 2009, Madam Chairman, you published an economic 
analysis of President Obama's stimulus plan and forecasts that 
if Congress were to pass this plan, one, the unemployment rate 
would remain below 8 percent; two, nonfarm payroll employment 
would increase to 137.6 million by the fourth quarter of this 
year; and finally, 90 percent of the jobs created would be in 
the private sector.
    Obviously Congressional Democrats passed the stimulus bill 
and the President signed it into law. Today we see the fourth 
quarterly report of the stimulus bill, and I will in all 
honesty nominate it as a Pulitzer in fiction, which would be 
humorous but for 15 million American workers who face the harsh 
reality of no jobs.
    What's missing from this report are the benchmarks the 
White House set for itself, which you can argue, Democrat and 
Republican benchmarks, but let's look at what the White House 
said the stimulus would do.
    Instead of keeping the unemployment rate below 8 percent, 
it's at 9.5 percent today and going higher. Nonfarm payroll 
employment right now is 130.5 million, 7 million jobs short of 
where the White House predicts it will be at the end of this 
year. And then since February 2009, instead of 90 percent of 
the jobs in the private sector being created, just the 
opposite. The Federal Government payroll has increased by over 
400,000. Private-sector, where the jobs in the recovery should 
actually occur, has lost 3.3 million payroll jobs.
    Clearly, the President's stimulus plan failed to work, as 
was predicted. Instead, this recovery has been unusually weak 
for one after a severe recession.
    Turning to the long-term consequences of the Democrats' 
economic policy, one sees higher taxes, heavy regulation, 
gaping Federal budget deficits, and soaring Federal debt.
    President Obama and our Congressional Democrats are 
increasing taxes through legislation. Their failure to 
legislate in BRAC creep in the non-index portion of the Tax 
Code, including the Alternative Minimum Tax and Excise Tax on 
so-called ``Cadillac health care plans.''
    Individual income tax rates will increase at the end of 
this year, and without a solution up to 27 million families 
will become ensnared in the Alternative Minimum Tax for the 
first time.
    The top tax rate on capital gains will increase from 15 
percent this year to 23.8 percent in 2013, while the top tax 
rate on dividends will also skyrocket from 15 percent this year 
to 43.4 percent in 2013.
    Congress allowed the research and development tax credit to 
expire. Moreover, Congress levied new excise taxes on private 
health insurance plans, pharmaceutical and medical device 
manufacturers, and tanning salons.
    And if these tax increases are not enough to choke the 
private sector, President Obama and the Congressional Democrats 
are still scheming to pass new energy taxes through cap and 
trade legislation and green jobs' legislation.
    According to press reports, two Administration panels will 
recommend levying a value-added tax once the mid-term elections 
are over.
    However, these massive tax increases are still not enough 
to fund Obama's extravagant Federal spending. The Congressional 
Budget Office predicts Federal outlays over the next decade 
will be 24.1 percent of our economy, 4.6 percentage points 
above the post-war average in this country.
    Our long-term fiscal outlook is dire. If current policies 
remain in place, the Congressional Budget Office projects that 
publicly held Federal debt will soar to an incredible 947 
percent of our GDP by the end of fiscal year 2084.
    These are all drags on our economy. Madam Chair, I look 
forward to discussing these issues with you. Yield back.
    [The prepared statement of Representative Brady appears in 
the Submissions for the Record on page 59.]
    [Chart titled ``Forecast vs. Reality, Unemployment Rate 
(%): Actual vs. Stimulus Projections (2009-2014)'' appears in 
the Submissions for the Record on page 61.]
    [Chart titled ``Job Gains & Losses by Congressional 
Control'' appears in the Submissions for the Record on page 
62.]
    [Chart titled ``Forecast vs. Reality, Change in Non-Farm 
Payroll Jobs, February 2009 to June 2010'' appears in the 
Submissions for the Record on page 63.]
    Chair Maloney. I want to thank my good friend and colleague 
for his testimony, but there seems to be a lot of revisionist 
statements in it.
    As this chart shows, clearly the economy has improved under 
President Obama not only in GDP but also in private payrolls. 
And if you recall, the last month that our former president was 
in office, this country lost 790,000 jobs.
    The chart goes upwards, and we are gaining jobs. We gained 
83,000 private-sector jobs in the last jobs report; 33,000 
private-sector in the time before; and roughly 550,000 new jobs 
in the past three jobs reports.
    So we are trending in the right direction----
    Representative Brady. Well Madam Chairman, since we're not 
following regular order, let's look at the jobs standards since 
Democrats took over control of Congress. Up until 2007, fully 
Republican-controlled Congress added almost 6.7 million jobs. 
Since Speaker Pelosi was handed the gavel, we've almost lost 
every one of those jobs back. And the stimulus isn't creating 
more--3.3 million jobs lost in the private sector since the 
stimulus began.
    Chair Maloney [continuing]. That's not the jobs report that 
the economists have been talking about. We lost jobs under the 
Bush Administration. We are gaining them now----
    Representative Brady. Well we are----
    Chair Maloney [continuing]. And as these charts show, we're 
trending in the right direction.
    Representative Brady [continuing]. Very slowly.
    Chair Maloney. Mr. Cummings is recognized for five minutes.

 OPENING STATEMENT OF THE HONORABLE ELIJAH E. CUMMINGS, A U.S. 
                  REPRESENTATIVE FROM MARYLAND

    Representative Cummings. Thank you very much, Madam Chair.
    You know, I am sitting here and I am listening to this, and 
we've got 53,500 people before the end of the day, Mr. Brady, 
who will lose their unemployment benefits, who will not be able 
to take care of their children, who will not be able to put 
food on the table. And, you know, we can go back and forth, but 
yesterday I was listening to Mr. Gregg, Senator Gregg--I think 
it was on MSNBC--and he said something that was very 
interesting. I almost had an accident. [Laughter.]
    He said, Mr. Brady, he was asked a question. You know he is 
no liberal. He is no flaming liberal, and he is a Republican. 
And he was asked a question about early on when the Bush 
Administration came asking the Congress for TARP money, he was 
asked the question: Was it as bad as it seemed? He said it was 
worse.
    But he said something else. He said, if it were not for--he 
was talking about TARP--but he said, if it were not for those 
funds, the unemployment rate would now be around 15 or 16 
percent. That's what Gregg said yesterday.
    Now, you know, we are digging ourselves out of a deep 
ditch. And I've said it over, and over, and over again. We all 
know that 60 percent of the GDP is consumer consumption. We 
know that. But yet and still, it seems as if there is an effort 
to, whenever progress is being made--and Chairman Romer, watch 
out, because it's coming--if you've got anything positive to 
say, I promise you you will be told that the sky is still 
falling, that this President had nothing to do with the 
progress. There is no progress.
    I don't care what happens, you will hear that. And at some 
point we have to join in and root for the home team. I've said 
that over and over and over again. If we want to constantly say 
the sky is falling, the sky is falling, the sky is falling, the 
sky is falling, guess what? The sky will fall.
    There has been progress made, whether we like it or not. 
Maybe it's not moving as fast as we would like. And, yes, 
predictions were made. But the fact is that those predictions--
I mean, keep in mind, we are at 9.5. We could have been at 16, 
as far as unemployment is concerned.
    And so I am looking forward to the report of Chairwoman 
Romer, but I want us to keep some things in mind. When this 
President came in, we were losing 750,000-plus jobs a month. 
That is no longer happening.
    Now, you know, I'm not going to stand here and say it was 
Bush's fault. I'm not going to say that the fact is, it was 
happening. We were losing. You can blame anybody you want. The 
fact is, we were losing 750,000-plus jobs every month. In 
January, back in January when he came in. And now we are not 
losing that. We are gaining jobs.
    And so it is so easy to stand on the sidelines and talk 
about this ain't happening, and that's not happening, and maybe 
it's not happening as fast as we want it to, but when you are 
in a deep ditch, sometimes you've got to climb up slowly 
because it takes a lot to get out of that ditch to get to level 
ground.
    And so I would beg my colleagues to root for the home team. 
America is a great country. We've dug ourselves out of ditches 
before, and we will dig out of this one again. As I said to my 
constituents over and over and over again, we will get past 
this economic problem.
    The question is not whether we will get past it. The 
question is: Who will be living in their house? Who will have 
their job? Will they have their health insurance? Will they 
have gone through a period of unemployment like millions and 
millions of Americans have gone through, over six months of 
unemployment, a substantial number of unemployed have been 
unemployed for over six months, but will they get through that 
process still standing?
    And I would submit that we need to join in with this 
President. Join in with Chairwoman Romer who is doing 
everything she can to make it possible so that when the storm 
is over, when the storm is over, people will be still standing, 
still moving forward, and will still be a part of the All 
American Dream. And with that, I yield back.
    Chair Maloney. Thank you. Senator Brownback has indicated 
that he will be yielding his five minutes to Congressman 
Burgess.

OPENING STATEMENT OF THE HONORABLE MICHAEL C. BURGESS, M.D., A 
                 U.S. REPRESENTATIVE FROM TEXAS

    Representative Burgess. Thank you, Chairwoman Maloney, and 
Chairwoman Romer welcome to our Committee once again. We 
appreciate as always your ability to share your time with us.
    So we've got another month, another set of facts and 
figures telling the American People what they already know; 
that the stimulus is not working. Recent polling out suggests 
that fully 60 percent of the American People do not believe 
that the stimulus has worked.
    So it begs the question that is asked over and over again, 
and a question which I will ask you today: Chairwoman Romer, 
where are the jobs?
    Companies are not hiring at rates anywhere near where this 
Administration claimed they would be. And indeed anywhere near 
what is required simply to maintain a level state of 
employment, let alone gain jobs in this economy.
    Business and individuals who have the same outlook when it 
comes to the President, what's it going to do--what is he going 
to do next that may make it harder for us to move forward?
    We hear a lot of talk about rooting for the home team. I 
wish the White House sometimes would root for the home team. An 
ill-advised and scientifically suspect drilling moratorium that 
is already seeing jobs shipped overseas, has rigs pull up 
anchor and sail to foreign ports, looming EPA regulations on 
emissions that will have consumers seeing their pocket--their 
energy bills skyrocket.
    Financial regulatory reforms that will take years to 
implement causing uncertainty in an already fragile market and 
leading banks to be able to loan less and less money, and 
really which do nothing, which do nothing to prevent a future 
financial meltdown, because after all the two biggest problems 
remain on the Federal ledger in the form of Fannie Mae and 
Freddie Mac.
    People not knowing what the future holds from this 
Administration makes it very, very difficult for them to invest 
their capital.
    I asked Secretary Salazar in a letter whether the 
Administration had done any economic analysis of what the 
drilling moratorium would do to job outlooks in the Gulf 
Region. To date, no response. I can only assume that this has 
not been done, or that the Administration would know, as the 
New Orleans Times-Picayune reported, that each job in energy 
exploration supports an additional four jobs providing supplies 
and services.
    What a deal. You can kill five jobs for the price of one. 
Now that is a statistic that the White House does not want us 
to hear.
    Sound economies need stability, and this President has 
provided anything but. He can claim to be pro-business all he 
wants, but continue to talk of card check and other pro-
unionizing regulations? Businesses know they can't afford to 
take risks right now.
    Congressional Democrats even inserted a provision in the 
War Supplemental essentially forcing state and local fire and 
police departments to unionize regardless of whether the 
workers in those departments have expressed any interest in 
that activity.
    Actions speak louder than words. And the actions of this 
Administration indicate one thing; this President and the 
people that he has put in place throughout the government have 
yet to see a rule or regulation that they aren't in favor of 
passing, and each rule or regulation adds to the cost, adds to 
the price of doing business, and each rule or regulation makes 
it less likely that especially small- and medium-sized 
businesses are going to add a new job.
    The Business Roundtable recently sent a report to the White 
House, a report of exactly what this President's policies are 
doing to businesses around the country. In a letter to Peter 
Orszag, Ivan Seidenberg, CEO of Verizon; James Owens of 
Caterpillar, said business leaders are increasingly concerned 
that political expediencies of the short term harm our ability 
to partner with government and create policies that foster 
growth.
    The CEO of JPMorgan told the White House: Punishing whole 
industries, whether they were reckless or not, just isn't the 
way to do things. The CEO of Nucor Corporation told The Wall 
Street Journal, there's this common concern that we're not 
doing things right yet, and it is showing up in the jobs 
numbers.
    One reason this Administration is so likely disconnected 
with the reality of what life is like in the private sector is 
so few of the President's top advisors have ever worked in the 
real world. It is difficult to find someone who has run a 
lemonade stand or held a paper route.
    Professors and academics, people who have spent the bulk of 
their careers in government, that is who we have dictating to 
the private sector how CEOs should be running their business. 
And that is in large part why business overwhelmingly resents 
and rejects the mandates being thrown at them by the 
Administration and this Congress.
    Maybe if the President started hiring more CEOs in his 
cabinet, like past presidents of both parties, as they have 
done for decades, he would start getting the kind of advice he 
needs to allow the private sector to recover and grow.
    It is further dismaying that the Council of Economic 
Advisers' latest Economic Impact Report admits that any 
analysis of job creation in each state in this report is, and I 
quote, ``speculative and uncertain,'' closed quote.
    After spending hundreds of billions of dollars to stimulate 
the economy, a year and a half later we can still only 
speculate on job growth? There either have or have not been 
jobs created by the stimulus.
    I don't need to speculate. All I have to do is look at the 
unemployment numbers that have been so stagnant under this 
President. The stimulus was a failure. I don't have to 
speculate about that.
    President Obama's philosophy in steering this economy seems 
to be taken directly out of Alice In Wonderland. When I use a 
word, it means just what I choose it to mean, neither more nor 
less. And furthermore, if you don't care where you end up, it 
doesn't really matter which road you take.
    I'll yield back the balance of my time.
    [The prepared statement of Representative Burgess appears 
in the Submissions for the Record on page 64.]
    Chair Maloney. I thank the gentleman. Congressman Snyder 
for three minutes.

     OPENING STATEMENT OF THE HONORABLE VIC SNYDER, A U.S. 
                  REPRESENTATIVE FROM ARKANSAS

    Representative Snyder. Thank you, Madam Chair.
    Mr. Burgess, I had both a paper route and a lemonade stand. 
I never did very well with the lemonade stand because I kept 
drinking the product, but I hope that gives me some credibility 
with you. [Laughter.]
    I don't have a copy, a written statement, but when I hear 
somebody say each regulation and rule inhibits job growth, that 
is just not the nature of a market economy. We have to--I mean 
the World Cup has referees. Football has referees. Baseball has 
umpires. We have to have rules and regulations that are fair to 
business, that are fair to consumers, that are fair to credit 
markets, that are fair to government, that are fair to the 
American People. Without them, we have chaos. That has been the 
history of capitalism.
    And so to just--and I don't have it in front of me, but 
when I hear you say each rule and regulation decreases jobs, in 
fact it gives people confidence that their investments will be 
protected, that there will be transparency in their 
investment--I mean, that is the whole point of the Wall Street 
reform, the Financial Services Reform bill that is going to be 
passed this week.
    So I think there certainly can be too much regulation. 
There can certainly be too little regulation. And it's like the 
Three Bears and the porridge, you've got to find the right 
blend.
    Dr. Romer, it is great to have you here. I hope that our 
discussion so far today does not sound more like we are 
concerned about our jobs rather than the jobs of the American 
People.
    I think I will defer from this point on and wait for your 
opening statement.
    Chair Maloney. Thank you, and Congressman Paul for three 
minutes.

      OPENING STATEMENT OF THE HONORABLE RON PAUL, A U.S. 
                   REPRESENTATIVE FROM TEXAS

    Representative Paul. I thank you, Madam Chairman, and 
welcome to Dr. Romer.
    I am not very good at the partisan blame game, but I am 
very interested in the business cycle and why we have 
unemployment. And actually I am interested in the measurement 
of our problems.
    I think sometimes we deceive ourselves, because following 
some free market web sites that measure unemployment somewhat 
differently than our government, they come up with a figure of 
22 percent unemployment. And also, even the way the Bureau of 
Labor Statistics measures it, if they looked at all the people 
who are not looking for work at the moment, that is 16 percent. 
So things are not very good.
    Also, the GDP is what we measure. If the GDP is going up, 
everybody is supposed to feel good. But if we spend a billion 
dollars on a missile and we blow it up, that's an increase in 
the GDP. And it didn't give us a house. It didn't give us 
health care or education. So there is a big difference.
    And also the inflation rate is very important. If you go 
back and use the old CPI measurement of inflation, we have 6 
percent, not 2 percent. So there is a lot of deception. And the 
people sense this. I think they would rather hear accurate 
information than to try to be bamboozled into believing things 
are just hunky dorey when they know there is a lot of inflation 
out there.
    The other thing that I have concern about, in measuring the 
GDP if you looked at the GDP in a private way, if somebody had 
a $200,000 job and he lost the job, and the family had $200,000 
or $300,000 of debt, for them to be told that what they need is 
a million dollar loan, and spend it, buy a house and buy a car 
and live high, and their personal GDP goes up, but they never 
measure the debt.
    But when we go to the government, we say the government is 
in debt; they're spending too much; what we need to do is 
spend. We need to borrow. And the GDP goes up. But if you 
measure the GDP that goes up because of borrowing, inflating, 
and spending, and look at that with a better perspective, I 
would say that maybe the real GDP isn't going up, and maybe 
that is why we are not having real growth.
    There is a big difference between people working hard and 
paying their bills and actually saving some money. I think the 
biggest fallacy that we have, because we don't have a 
correction, is we don't understand how we got here.
    We had too much debt and too much mal-investment. And we 
have not dealt with that. And when you get too much of it, you 
have to liquidate it. When you get in over your head and you 
can't pay the bills, you either have to declare bankruptcy or 
work hard or take a new job.
    But we can see this as an individual or a company, but 
evidently our economic theory now is that governments are 
exempt from those kinds of economic rules.
    I yield back the balance of my time.
    Chair Maloney. I thank the gentleman for his statement, and 
now I would like to introduce Dr. Christina Romer. She is the 
Chair of the Council of Economic Advisers. Prior to joining the 
Obama Administration, she was the Class of 1957 Garff B. Wilson 
Professor of Economics at the University of California, 
Berkeley. Before teaching at Berkeley, she taught economics and 
public affairs at Princeton University. Until her nomination, 
she was co-director of the program in Monetary Economics at the 
National Bureau of Economic Research, and served as the Vice 
President of the American Economic Association, where she was 
also a member of the Executive Committee. Dr. Romer is known 
for her research on the causes and recovery of the Great 
Depression, and on the role that fiscal/monetary policy played 
in the country's economic recovery. That was all valuable 
experience for what we are confronting now.
    Her most recent work, co-authored with her husband, David 
Romer, also an economics professor, shows the impact of tax 
policy on government and economic growth.
    She is the recipient of the John Simon Guggenheim Memorial 
Foundation Fellowship, an Alfred P. Sloan Research Fellowship, 
the National Science Foundation Presidential Young Investigator 
Award, and the Distinguished Teaching Award at Berkeley.
    She received her Ph.D. from the Massachusetts Institute of 
Technology. Thank you so much for coming, but we have been 
joined by the Vice Chair, Senator Schumer. He is always on a 
tight schedule, so I would like to call on the Senator very 
quickly for his statement, and then we will go to Dr. Romer.

  OPENING STATEMENT OF THE HONORABLE CHARLES E. SCHUMER, VICE 
             CHAIRMAN, A U.S. SENATOR FROM NEW YORK

    Vice Chairman Schumer. Well thank you very much, Madam 
Chairperson. I very much appreciate it. I am on a tight 
schedule. I was supposed to come before you started, so I 
apologize. I will make my brief statement here and first thank 
you for the great job you are doing both here and in New York, 
Madam Chairperson.
    And I thank you, Chair Romer. The economy is on the 
forefront of everybody's mind. The official unemployment rate 
remains unacceptably high, 9.5 percent. But if you are one of 
the 15 million Americans who are out of work, the unemployment 
rate feels more like 100 percent.
    Our economy is showing signs of life. As you know, GDP 
growth is healthy. But we in the Congress need to do more to 
spur job creation. And as you know, Madam Chair, back in 
January I teamed up with Senator Hatch of Utah to author a 
targeted, simple, and cost-effective tax incentive to encourage 
businesses to hire unemployed workers.
    The tax cut we proposed passed the Senate with 70 votes and 
became law as part of the HIRE Act in March. Today, every 
business in America is exempt from paying payroll taxes on 
wages paid to previously unemployed workers. It's that simple.
    Hire a person who has been unemployed for at least 60 days, 
and you don't have to pay the 6.2 percent Social Security 
payroll tax for that worker for the duration of 2010.
    According to a recent report by the Treasury Department, 
the tax cut has been a wild success. They estimate that 4.5 
million unemployed Americans have been hired between February 
and the end of May, and there is no question many of these 
workers would have been hired anyway, but there is also no 
question that many of them would not have been.
    And each of those businesses that hired someone saw a tax 
break. If these 4.5 million stay employed through the rest of 
the year, businesses will see a total of 5.1 billion in tax 
savings.
    So I think there is no denying that the Schumer-Hatch Tax 
cut is working. My question that I will ask you to answer after 
your testimony is: In light of this success, do you support 
extending the tax cut for an additional six months? What type 
of impact would such an extension have on our Nation's long-
term economic outlook?
    And so that is it. I yield back my time and very much 
appreciate your letting me speak now, Madam Chairwoman.
    Chair Maloney. Always a pleasure, Senator, and we have been 
also joined by Senator Brownback, so I would also like give him 
the courtesy of speaking.

   OPENING STATEMENT OF THE HONORABLE SAM BROWNBACK, RANKING 
              MINORITY, A U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you very much, Madam Chairman. I 
apologize for being late. I had two subcommittees I needed to 
attend.
    Welcome, Chair Romer. I am happy to have you here. I am 
really looking forward to your comments, because it seems like 
the Administration holds the key to a lot of what is holding 
back in the economy--uncertainty in regulation, and taxation is 
certainly buzzing in the air, as businesses consider whether or 
not they're going to invest, or they are going to hold back.
    And we need people investing. We need people moving 
forward. We need people creating jobs. We need job creation. We 
need these things to move on forward. And yet that level of 
uncertainty that is created in the tax and regulatory 
environment in particular seems to be stymieing a lot of 
people. And you are now hearing that being expressed in a very 
open fashion.
    So my hope is that you can address that level of 
uncertainty, particularly on taxes and regulations from the 
Administration's perspective. Because it is really needed for 
the American public and the economic health of our country to 
be able to move forward.
    I was very concerned when I saw today's front page of The 
Wall Street Journal that the Fed is citing slower growth rates. 
We need faster, not slower growth rates taking place. The 
consumer confidence is getting shaken, not moving in the right 
directions. Seeing just a number of factors that have raised 
concern, and I really hope you can address those issues, 
particularly on taxes and regulation and overall debt and 
fiscal policy that I think are contributing way too much to 
that concern.
    Chair, thanks very much for holding this hearing. I think 
it is important that we do it, and important that we hear from 
the Chair on this.
    Chair Maloney. Thank you so much, and we now recognize 
Chairwoman Romer.

 STATEMENT OF THE HONORABLE CHRISTINA D. ROMER, PH.D., CHAIR, 
          COUNCIL OF ECONOMIC ADVISERS, WASHINGTON, DC

    Chair Romer. Thank you so much, Chair Maloney, Vice Chair 
Schumer, Ranking Member Brownback, Congressman Brady:
    It is indeed a pleasure to be here today to discuss two 
issues that are of interest to both the Joint Economic 
Committee and the Council of Economic Advisers.
    One is obviously the economic impact of the American 
Recovery and Reinvestment Act of 2009. As part of the 
unprecedented transparency and accountability provisions in the 
Act, the CEA provides a report to Congress about the Act each 
quarter.
    In this Fourth Quarterly Report released this morning we 
not only find that the Act has had a substantial effect on 
output and employment, but that it is leveraging private 
capital and making an important investment in the future of 
productivity of the country.
    The second topic I will discuss is the economic outlook. 
The Recovery Act and other actions have helped to turn the 
economy from free fall to recovery. But much work obviously 
remains to do to return the economy to full health. And I will 
discuss the role that the targeted actions currently being 
discussed by Congress could play in counteracting some of the 
headwinds to growth that have become more apparent in recent 
weeks and, by doing so, accelerate the rate of recovery.
    Let me begin by discussing what the CEA's new report finds 
about the impact of the Recovery Act as of the second quarter 
of 2010. With the Chair's permission, I would like to enter a 
full copy of the report into the record.
    You know, Congress designed the Recovery Act both to begin 
spending out quickly and to provide crucial support to the 
economy over a two-year period. It has met and is continuing to 
meet those goals.
    The state fiscal relief, the payments to seniors, the 
emergency unemployment insurance benefits went out almost 
immediately and started aiding the economy in the spring and 
summer of 2009.
    The tax cuts went into effect immediately as well, but it 
was really during tax season--the first two quarters of this 
year--that many Americans have seen concrete signs in the form 
of reduced tax payments and increased tax refunds.
    In previous CEA reports, we have highlighted the state 
fiscal relief and the tax cuts and income support provisions of 
the Act and found evidence of their effectiveness.
    Well in today's Quarterly Report we highlight the public 
investment spending in the Recovery Act. This is the project 
spending that not only creates jobs in the short run, but 
leaves us with an expanded and improved ability to create high-
paying jobs in the future.
    The Recovery Act includes some $319 billion of public 
investment on everything from basic infrastructure such as 
roads, bridges, and airports, to 21st Century infrastructure 
such as a smarter electrical grid and universal broadband. It 
invests in community health centers, health information 
technology, education, and job training to improve the health 
and skills of our citizens--our human capital. And it makes 
unprecedented investments in basic scientific research to 
enhance innovation and help retain our competitive edge.
    The public investment components of the Recovery Act were 
always expected to spend out more gradually, because they 
typically require planning, and they are often awarded through 
a rigorous competitive process. But these outlays increased by 
more than 50 percent between the first and second quarters of 
this year, which explains why the Vice President has named this 
summer the ``Summer of Recovery.''
    In the area of transportation infrastructure alone, nearly 
14,000 projects have been awarded as of the first quarter of 
2010.
    Now an innovative feature of the Recovery Act is its focus 
on partnering private investment--or public investment with 
private and other funds. Much of the Recovery Act investment 
spending takes the form of matching grants, loan guarantees, 
interest subsidies, and tax incentives that support and 
encourage outside investment.
    For example, the 48C Advanced Energy Manufacturing Credit 
gives private firms that pass the Department of Energy's 
competitive process a 30 percent tax credit for their 
investments in factories to produce solar panels, wind 
turbines, and other clean energy products.
    The Broadband Initiatives Program provides grants and loans 
to firms and regional authorities to bring Internet access to 
rural communities. And the Build America Bond Program 
subsidizes the interest cost of state and local government 
borrowing for schools, transportation, and other vital projects 
so that these entities are encouraged to invest in local 
infrastructure.
    Well the CEA's Report collected information from 15 
agencies on the nature and the extent of the leverage 
provisions in the Recovery Act. We find that roughly $100 
billion of Recovery Act funds use leverage, and that these 
provisions are encouraging co-investment in a wide range of 
areas.
    The greatest use of these innovative provisions are in the 
areas of clean energy, economic development, and building 
construction. We estimate that the $100 billion of Recovery Act 
funds will partner with close to $300 billion of other funds, 
the majority of which are from the private sector. That is, $1 
of Recovery Act funds is matched by $3 of other funds. All 
told, the $100 billion investment from the Recovery Act will 
support more than $380 billion of total investment spending.
    Now a detailed examination of the incentives for wind 
energy production suggest that such leverage provisions can 
have a significant impact on private sector investment 
behavior. Thus, the Recovery Act appears to be stimulating 
private investment and job creation at a time when the economy 
needs it most.
    Now in our Report we estimate the impact of the Recovery 
Act on job creation in two ways.
    One is a model-based approach similar to that used by the 
Congressional Budget Office. This approach uses multiplier 
estimates based on the historical record to estimate how the 
Recovery Act tax cuts and outlays likely translate into 
employment effects.
    The second approach that we use to estimate the employment 
impact of the Act does not depend on policy multipliers 
estimated from past history. Instead, it uses statistical 
procedures to project the likely path of employment based on 
the information available through the end of the first quarter 
of 2009, when the Recovery Act was passed, and then it compares 
the actual path of employment with the forecasted baseline.
    Now the model-based approach indicates that the Recovery 
Act has raised employment relative to what it otherwise would 
have been by 2.5 million jobs as of the second quarter of this 
year.
    Of these jobs saved or created, more than 800,000 are due 
to the public investment outlays that have occurred so far. The 
projection approach yields a substantially larger number: It 
suggests that employment as of the second quarter is 3.6 
million higher than it otherwise would have been. By that 
estimate, the Recovery Act has met the President's goal of 
saving or creating 3.5 million jobs--two quarters earlier than 
anticipated.
    Now our review of a wide range of other estimates of the 
employment effects of the Act, coming from private forecasters 
as well as the nonpartisan Congressional Budget Office, shows 
that our model-based estimate is very similar to that of 
outside experts. Our projection-based estimate is higher than 
other estimates, though very similar to the Congressional 
Budget Office's high-end estimate of 3.4 million.
    There is obviously a great deal of uncertainty around any 
jobs estimate, and I suspect that the true effects of the Act 
will not be fully analyzed or fully appreciated for many years. 
But our compendium of outside estimates shows that respected 
analysts across the ideological spectrum, as well as the 
Congressional Budget Office, agree that the Act has had 
significant benefits on employment and output over the past 
year.
    Well let me turn to the second topic that I want to discuss 
today, and that is the state of the U.S. economy and the 
outlook for the future.
    First, and most obviously, the economy is doing much better 
today than it was when I last testified to the JEC in October 
of 2009. At that point we were just beginning to see the first 
signs of recovery. We now know that GDP began to grow in the 
third quarter of 2009, and has been expanding at a moderate 
pace since then.
    In October of 2009 we were still losing jobs, although at a 
much slower rate than in the depths of the crisis. Since the 
beginning of 2010 we have been consistently adding jobs. 
Private sector employment is up nearly 600,000 since the start 
of the year. In October of 2009, the unemployment rate hit 10.1 
percent. It has fallen six-tenths of a percentage point since 
then to 9.5 percent in the most recent report.
    While the conditions are much improved from last October, 
and dramatically better than they were in the dark days of late 
2008 and early 2009, the economy remains far from fully 
recovered. The financial crisis and the ensuing recession 
inflicted a terrible toll on American families and workers, and 
much work remains to be done to repair the damage after the 
storm.
    Now some might see a conflict between my earlier discussion 
of how useful the Recovery Act has been and the fact that 
economic conditions are still very tough. But there is none.
    The Recovery Act is doing what the Administration and other 
analysts said it would do: It has increased employment greatly 
relative to what it otherwise would have been. It has helped to 
fill in some of the shortfall in demand, and has played a 
fundamental role in the dramatic change in the trajectory of 
the economy.
    But because the deterioration of the economy was so severe 
in late 2008 and early 2009, even with this essential aid the 
economy remains troubled. It is surely little comfort to 
families that are still struggling to hear that without the 
Recovery Act, conditions would have been far worse. But it is, 
nevertheless, true.
    What can we expect for the economy in the months ahead? The 
past few weeks have seen more mixed economic reports than we 
saw in the spring. Following the troubles in Europe associated 
with the Greek debt crisis, stock prices have declined 
noticeably and financial markets have been subject to greater 
volatility than we've seen for more than a year.
    Perhaps related to this financial sector unease, some 
measures of consumer confidence have fallen. Also, housing 
sales and building permits took a decided drop in May, 
suggesting that a self-sustaining recovery has not yet taken 
hold in the housing sector.
    Importantly, despite these troublesome developments, many 
areas of the economy continue to show strength. The fact that 
personal consumer expenditures grew in May suggests that 
consumer spending, the largest source of aggregate demand, is 
continuing at a solid pace.
    The data on shipments of capital goods in May indicate that 
business investment in equipment and software continues to grow 
rapidly. And industrial production has expanded strongly, 
particularly in the high tech-tech manufacturing sector, where 
production is up 18 percent since May of 2009. Manufacturing 
jobs are growing at their strongest pace since 1998.
    Now as we look forward, it is clear that the economy 
continues to face some strong headwinds. The dire situation of 
state and local budgets means that without additional Federal 
aid, state and local governments will continue to shed jobs and 
act as a contractionary force on overall economic activity.
    Though credit conditions have ceased tightening, both 
recent statistics and reports from market participants suggest 
that many borrowers, particularly small businesses, still find 
it difficult to get loans. This obviously hinders small 
business growth and job creation.
    Finally, the housing bubble and bust has left many 
homeowners over-indebted, and the U.S. economy with a 
substantial over-supply of housing. As a result, the prospects 
for a rapid growth in residential investment, as we have seen 
in previous recoveries, are slim.
    Because of these persistent headwinds and the recent spate 
of mixed indicators, most private forecasters are predicting 
continued growth and job creation, but at a somewhat more 
subdued pace than the robust growth that looked possible a few 
months ago. Without further aid, the economy will continue to 
grow but the rate of recovery will likely continue to fall 
short of the rapid expansion that is needed to bring the 
unemployment rate down quickly.
    For this reason, the additional targeted actions that the 
President recommended last winter are even more important today 
than when he first proposed them. Each of the actions is 
designed to counteract some of the headwinds that we face, and 
by doing so to increase the speed of recovery.
    The most fundamental of these targeted actions is an 
extension of emergency unemployment insurance benefits. 
According to the Department of Labor, 2.1 million Americans 
have already seen their unemployment insurance benefits stop 
because of the failure to extend the program. That number will 
rise to 3.2 million by the end of this month. It will be 
devastating both to the families affected and the overall 
economy if this support is not renewed.
    At a time when the unemployment rate is 9.5 percent, there 
can be little question that such support is deeply needed.
    Support for small business lending is another essential 
program to counteract the headwinds we face. This is an 
exceptionally low-cost measure that promises to materially 
increase the availability of credit to small firms currently 
struggling.
    Such credit support, together with the small business tax 
cuts and bonus depreciation included in the bill, will be a 
much needed shot in the arm for small businesses. Such support 
will help them to expand and create jobs.
    The third targeted measure that will help to ensure more 
rapid recovery is additional aid to state and local 
governments. There has been much discussion in the past week of 
innovative ways to structure this aid so that it encourages 
beneficial reforms or pays for itself over time. Many 
variations have merit, and the Administration is anxious to 
work with Congress to pass a sound plan. But some form of 
meaningful state fiscal relief is necessary both to prevent 
widespread layoffs of teachers, fire fighters, and police 
officers, and to accelerate job growth throughout the economy.
    Now we are all keenly aware of our large budget deficit and 
the long-run fiscal challenges that we face. The President is 
committed to meeting those challenges. That is why he has 
worked with Congress to pass health care reform that will lower 
the deficit by more than a trillion dollars over the next two 
decades.
    It is why his budget included a three-year freeze in 
nonsecurity discretionary spending, and why he established a 
bipartisan commission to forge the necessary consensus for 
sensible, serious deficit reduction.
    It is also why the Administration has pursued a wide range 
of low-cost measures to spur job growth such as export 
promotion and public-private partnerships that have proven so 
successful in leveraging private investment through the 
Recovery Act.
    But not taking additional targeted actions, many of which 
are fully paid for over the budget window, because of concern 
about the deficit would be misguided. Allowing the unemployment 
rate to remain severely elevated for an extended period runs 
the risk of permanently lowering labor force participation and 
worker skills. Such permanent damage would not only be terrible 
for the workers involved, it would be terrible for our long-run 
budget situation.
    Our Report today contains the latest evidence that the 
Recovery Act has been highly effective at helping to turn the 
economy from free fall to growth. What we need now is to take 
some targeted, fiscally responsible additional steps to speed 
the recovery and finally return the economy to health after the 
wrenching events of the past few years.
    Now much of my discussion this afternoon is appropriately 
focused on the recovery and the need to jump-start job 
creation. Nothing is as important as getting Americans back to 
work. But in closing let me take just a minute to look both 
further back and further into the future.
    Even before the financial crisis and the Recession that 
followed, the United States was facing economic stress. As 
documented in the Economic Report of the President from last 
February, health care costs were rising rapidly, squeezing both 
families and businesses. We were failing to invest as much as 
we should in education and R&D. And our financial regulatory 
structure had failed to keep up with the technological and 
behavioral changes in the industry.
    These developments were leading to stagnating incomes for 
middle class families, less innovation, and excesses in our 
financial system that set the stage for the crisis.
    Over the past 18 months, the President and Congress have 
not only taken unprecedented steps to deal with the Recession, 
but have also made great progress in facing these longer run 
challenges.
    The Patient Protection and Affordable Care Act passed last 
March will slow the growth rate of health care costs by 
improving both the efficiency and the quality of our current 
system.
    The investments in education and basic scientific research 
started in the Recovery Act and continued in other legislation 
will build the skills and knowledge base essential for raising 
standards of living and competing in world markets.
    And the financial regulatory reform legislation on the 
verge of completion will help prevent a repeat of the 
terrifying meltdown of the financial system that we experienced 
in the fall of 2008.
    By working to both rescue the economy in the short run and 
rebuild the fundamental sources of productivity and stability 
in the long run, the President and Congress are charting a path 
not only back to normal but to a better normal than we had 
before. Thank you.
    [The prepared statement of Dr. Christina D. Romer appears 
in the Submissions for the Record on page 66.]
    [The Council of Economic Advisers' report titled ``The 
Economic Impact of the American Recovery and Reinvestment Act 
of 2009'' appears in the Submissions for the Record on page 
77.]
    Chair Maloney. Thank you very, very much for your 
testimony. In your testimony you explained how $100 billion in 
Recovery Act investments use leverage to encourage private 
sector investment, the result being that Federal dollars go 
much further.
    I was extremely struck by your statement that $100 billion 
in Recovery Act dollars supports $380 billion in total 
investments when we partner with the private sector, with each 
$1 of investment enabling another $3 of activity.
    I would like to ask a question about my home State of New 
York. I saw in your report that you released today that the 
Recovery Act has created an estimated 206,000 jobs in New York 
State, and of course I am very pleased to see that. New Yorkers 
need every single one of those jobs.
    Along those lines, can you tell me how much private 
investment in New York State has been spurred or sparked by the 
$100 billion in Recovery Act investments?
    Chair Romer. All right. Let me first say, since it came up 
earlier about state employment numbers, one thing----
    Chair Maloney. The microphone. They need to hear you 
better.
    Chair Romer [continuing]. I wanted to first say a word 
about the state employment numbers. Because it was mentioned, 
we do say those are inherently more uncertain than our overall 
estimates. And it is important to realize we get direct reports 
from only a small fraction of the recipient of funds. No one 
fills out a form about the unemployment insurance, or the tax 
cuts. It's only the direct projects. And that gives us one read 
on employment by state.
    What we try to do in our report is get some estimates about 
all of the effects on employment. And that is where that larger 
number that you mentioned comes from. And we do the best that 
we can, but it is inherently harder when you are trying to do 
it for 50 individual states.
    In terms of how much of the leverage is happening in 
particular states, we have not actually done that analysis. It 
was hard enough to get the overall level of analysis, but that 
is certainly something that I think we would very much like to 
work on. I know that the Vice President's office is planning to 
do a follow on to our work. We are really the first step in 
evaluating these leverage provisions.
    And so I think going--looking state by state would be very 
interesting to the degree it is possible.
    Chair Maloney. That would be helpful. But could you 
elaborate on what sectors, or what areas, are benefiting from 
this $100 billion in leverage? Is it clean energy? Or loans to 
small businesses? Or manufacturing? Could you elaborate on what 
areas are benefiting and possibly give us some examples of some 
successes that have leveraged these dollars and helped 
communities employ Americans?
    Chair Romer. Absolutely. So in terms of areas, one of the 
striking things is there are these leverage provisions over a 
wide range of areas of investment. But the biggest ones are 
clean energy, building construction, and economic development.
    Just some examples of clean energy, the 48C Advanced 
Manufacturing Tax Credit is one I mentioned in my testimony. 
That is where people who want to build a factory set up a 
company to make some of these new clean energy projects partner 
and get some seed money from the government and do that.
    The President is going to be in Holland, Michigan, 
tomorrow--or later this week to talk about an advanced battery 
manufacturing plant, which is getting a direct grant from the 
government, being matched by private funds.
    In terms of economic development, a lot of that is the 
Small Business Administration. We have the loan guarantees that 
were passed in the Recovery Act. They upped some of those. That 
is partnering with a lot of loans to small businesses, creating 
businesses throughout the country.
    And then building construction. We know the Build America 
Bonds that were included in the Recovery Act have been wildly 
popular with a lot of state and local governments. They are 
being used to fund everything from schools, to community 
centers, to other kinds of infrastructure, and those are being 
very, very widely used and quite successful.
    Chair Maloney. Well thank you. My time has expired. Senator 
Brownback.
    Senator Brownback. I understand you are going to have a 
vote shortly, so I will pass to Congressman Brady so he can go 
to vote.
    Representative Brady. Thank you, Madam Chairman.
    I feel like the report, you cherry picked a lot of the 
economic studies and I think almost made up some of the 
comparative projections, but what is more disappointing is that 
your own benchmarks are not included.
    My question is: Why don't you have them in there? It was in 
the first two Quarterly Reports. You can't say that the economy 
was worse than imagined because the Republicans said your 
projections were rosy to begin with, so is the White House 
ducking accountability on the stimulus? Or simply hiding the 
test so that we can't match it against the poor performance?
    Chair Romer. So let me be very clear. First, on the numbers 
that we compare ourselves to, we are looking at the same range 
of estimates that we have looked at in all of the four 
quarterly reports. So that we tie ourselves to the 
Congressional Budget Office--a highly respected forecaster.
    Representative Brady. But is there a reason yours are not 
in here? I mean, you were very--you were front and center on 
what the stimulus would do. It was widely reported. Members of 
Congress debated it on the House Floor and in the Senate, as 
well, but now they're missing.
    Chair Romer. Can I say that, no, they're exactly--the main 
goal that the President gave was that he thought that this Act 
would save or create 3.5 million jobs. And that is absolutely 
the marker that we are looking at and comparing ourselves to.
    Representative Brady. So just to be clear, the White House 
didn't say ever that unemployment would remain below 8 percent? 
That you would create 137 nonfarm payroll jobs by the end of 
the year. Or that 90 percent of the jobs would be created in 
the private sector? You did--and the fact it was actually in 
the first two Quarterly Reports when it shouldn't have been 
there?
    Chair Romer. It was not in the first two Quarterly Reports. 
That was in the report that Jerry Bernstein and I put out 
during the transition. And let me just address it right now, 
because we did--the picture that you showed is one that has 
even showed up on Jon Stewart. But let me explain what I think 
is going on.
    I think the most important thing to say: It has nothing to 
do with the stimulus not working. Every study that comes out, 
every test that we do says that the stimulus is doing what we 
anticipated it would do. It's on track to save or create 3.5 
million jobs.
    Representative Brady. Sure. But I disagree with that, but 
back to sort of hiding the benchmarks. Why?
    Chair Romer. No one is hiding a benchmark. The fundamental 
thing is about what I have control over, what you had control 
over in designing the Act is what would the Act do? What none 
of us has control over is what was happening in the economy, 
what was going to happen without the Act. And the fundamental--
--
    Representative Brady. Well actually you did estimate--you 
did estimate originally what would happen without the Act in 
comparing it against that----
    Chair Romer [continuing]. Absolutely.
    Representative Brady [continuing]. It is still a failure.
    Chair Romer. Okay, so that----
    Representative Brady. I guess, again, your benchmarks to me 
mean something because they're not Republican or Democrat, they 
come from the White House. They're no longer cited because 
obviously the performance has failed to meet the----
    Chair Romer [continuing]. No. I want to disagree 
completely. Our benchmark had always been how many jobs would 
this save or create. And that is what we are judging ourselves 
against. That is what we estimate in every way possible. It is 
what we contract--contact private investigators--private 
analysts on Wall Street.
    Let me come back to what changed between when we made that 
prediction about what would happen to the unemployment rate is 
the economy, the track it was on, net of the--without the 
Recovery Act deteriorated. And I think it is important to 
realize----
    Representative Brady [continuing]. But we were telling you 
that when you made that prediction.
    Chair Romer [continuing]. You know, if you looked----
    Representative Brady. We were telling you those were rosy 
assumptions.
    Chair Romer [continuing]. You know, if you go back and look 
in the Economic Report of the President, which is before your 
Committee, look in chapter two. Because we actually show you 
what other forecasters, the blue chip consensus, right, the 50 
top forecasters in the country, what they were predicting. I 
think what you forget is, we were getting a tremendous amount 
of information that first couple of months, and the economy was 
turning in a way----
    Representative Brady. But with all due respect, we haven't 
forgot what your benchmarks are. And I don't know how, really, 
you can claim success when you failed on those three key 
features. Plus, predictions you would jump start the economy 
didn't happen. That you'd restore consumer confidence--it is 
low today, 90 percent of Americans believe the economy is in 
bad shape, and 3 out of 4 don't believe it is getting better.
    And how do you claim the stimulus worked when you've got 
businesses holding on to $2 trillion of cash that they are not 
rehiring people with. They're not hiring new workers with. They 
are not making that investment or expansion decision. That is 
proof positive that the stimulus has failed, because those 
companies, eager to recover, simply face uncertainty, don't 
want to be punished, reluctant to do it. How do you stimulate 
by causing people to hold on, and businesses to hold on to 
their own cash?
    Chair Romer [continuing]. Congressman, I have to disagree 
fundamentally with your statement that it hasn't had an 
incredible impact on changing the trajectory of the economy.
    You can't look at the kind of pictures that the Chairwoman 
showed that showed we were on a trajectory of losing 750,000 
jobs a month.
    Representative Brady. But last month not a single industry 
in America statistically showed a significant increase in jobs. 
Last week, a little less than a half a million people filed for 
unemployment, and that was celebrated. How can these be signs 
of success after a stimulus of breath-taking proportions?
    Chair Romer. Can we cite the number that we added 600,000 
private sector jobs since the beginning of this year? You're 
not going to get any argument with me, things are still----
    Representative Brady. But you've lost 3.3 million jobs 
since the stimulus passed in that 16 months. We're going the 
wrong-- it's gone the wrong direction. And the Federal 
Government workers are the only ones so far that have had safe 
paychecks.
    Chair Romer [continuing]. I think you need to remember 
again how severe this Recession has been, and how it got 
dramatically worse before anyone passed any Stimulus Act.
    If you want to know about our forecast errors, almost all 
of them came from the fourth quarter of 2008, and the first 
quarter of 2009. Before the stimulus could have done anything, 
the economy deteriorated rapidly. That's the main source of why 
we're not meeting that benchmark.
    Can I also point out one other thing? Which is, while you 
like to talk about how we've missed our unemployment forecast, 
it actually turns out that our GDP forecast has turned out to 
be remarkably accurate. And that in terms of what we said the 
stimulus would do to GDP, even taking into account the 
baseline--because part of what's happened is a breakdown in the 
usual relationship between GDP and unemployment.
    Chair Maloney. The gentleman's time has expired. I would 
like to comment to my very good friend and colleague for whom I 
have great respect: you say we haven't seen any evidence of a 
recovery, that uncertainty is preventing businesses from 
hiring, and that the Recovery Act did not help get the economy 
back on track.
    Of course I disagree with this, but I was also very 
interested in reading the Republican Study Committee document. 
This is from the Republican Caucus and their Committee of the 
Budget. I would just like to read a few sentences in there, and 
it seems to disagree with some of the statements from my 
respected colleague, and it's from the newest global financial 
risk sovereign area that they're writing about, and I quote:

        The U.S. economy began to slowly recover in 2009 from 
        the effects of a long and deep recession and a 
        financial crisis. GDP growth turned positive. In the 
        latter half of this year, financial markets normalized 
        and major credit markets began to function smoothly, 
        after an extended period of paralysis and turmoil. For 
        most of 2010, economists have said a moderate recovery 
        was well underway.

    That's just from the Republican document, and I would like 
to give it to my good friend and colleague.
    Representative Brady. Do they cite the stimulus for that? 
Because I specifically know it doesn't. It cites $1.3 trillion 
in federal----
    Chair Maloney. ``The economy is improving,'' according to 
the Republican Caucus Report. We have been called to vote, and 
I would now like to turn it over to Senator Klobuchar and thank 
her very much for chairing this committee while we run to vote. 
Thank you for your testimony, and here is the Republican 
document, which basically says the same thing you were saying, 
Dr. Romer. Thank you for your hard work.
    Senator Klobuchar [presiding]. Representative Cummings.
    Representative Cummings. Thank you very much, Madam Chair.
    I told you. I told you that they would say the sky is 
falling, and that the progress that we have made, that the 
President and your Administration had nothing to do with it. I 
told you.
    You said something that really intrigued me. You said a 
lot, really, but you talked about small business lending and 
how significant that would be, and I'm going back to some of 
the things that Mr. Brady was talking about.
    We had the Federal Reserve in my District about three weeks 
ago, and we had business people come in. And one of the things 
that they said is that if we could just get access to capital, 
there are--I mean, one lady stood up and she said: I've got 
opportunities at my fingertips. I just can't get the capital. 
And so could you comment on that briefly?
    And then I want to ask you about the whole idea--and this 
is the major question, Dr. Romer--a lot of people think that 
Democrats, some of us, are not concerned about the deficit. And 
we are concerned about the deficit. I want you to just--you 
talked about how it is important that we also create jobs and 
do those things to spur jobs, and I need you to tell us about 
the balance. That is, dealing with the deficit and also 
creating jobs.
    Because I've got people, and they are concerned about the 
deficit, but let me tell you something. They are trying to 
figure out how they are going to be alive. Although they are 
concerned about the deficit, they are worrying about being 
alive to see the effect of the deficit going down.
    So can you answer those two questions for me?
    Chair Romer. Absolutely. So first on the small business 
capital, what you are hearing in your District is exactly what 
we are hearing. Which is, as many parts of the financial system 
have gotten more stable, it is easier for big firms to issue 
bonds and get capital, we are still hearing that it is hard for 
small firms.
    And the idea that there are opportunities at our 
fingertips, and you just can't get the loan to put them into 
practice. And that was something that Chairman Bernanke also 
talked about in a recent speech. And that is exactly why, for 
several months we have had the proposal for a Small Business 
Lending Fund that takes a small business--a small amount of 
government money, gives it to--lends it out to community banks 
that do most of the--small banks that do most of the lending to 
small businesses at very favorable rates, and encourages them. 
They get even more favorable rates if they do more small 
business lending.
    It's just a win--it's a very winning proposition. It's very 
cost effective. But we think it will have a material impact on 
getting more loans to small business.
    Representative Cummings. Now talk about deficit versus--now 
are you concerned about the deficit?
    Chair Romer. Of course.
    Representative Cummings. And you are a professional. You 
have been doing this for years. I just don't want people to 
think that Democrats and this President are not concerned about 
the deficit. Can you kind of tell us about what you all are 
trying to do?
    I think you're trying to balance this thing out?
    Chair Romer. Absolutely. I can tell you how many times we 
have had meetings with the President. He is deeply concerned 
about the deficit. He is concerned about the fact that it has 
been a problem we have known about for a good 20 years, that 
keeps getting kicked down the road, and that is why he set up 
the bipartisan commission.
    He was convinced it was such an important problem, he also 
knows the only way we're going to solve it is if both parties 
come together and figure out a solution that we can both live 
with.
    So you will get no argument from me that it is an 
incredibly important problem. I do want to say that I think 
that the health reform legislation was a major step in the 
right direction. For all that we can talk about quality, and 
efficiency, and expanding coverage, that bill was also a major 
fiscal action. It was a consolidation that is truly going to 
help to slow the growth rate of costs, and that is, any study 
will tell you, the main source of big budget deficits in the 
future.
    So that was an important first step. We absolutely need to 
do more.
    Representative Cummings. Well if I say to you, don't, for 
example, do unemployment benefits because I'm worried about the 
deficit, I mean what's your answer to something like that? I'm 
just curious.
    Chair Romer. Well there are two things to say. One is, our 
budget had a very serious plan. Which is, we knew that the 
fiscal stimulus was going to be going off. We also in our 
budget had--letting the tax cuts for the highest income earners 
expire, as they're set to do at the end of this year. We mixed 
that with a group of targeted actions like extending 
unemployment insurance to have a sensible path, what Peter 
Orszag has described as a ``glide path'' back down to a smaller 
deficit. And so that was absolutely--it's important to have a 
plan, and we had that in our budget.
    The other thing is, and so it is important to realize we 
are making important fiscal consolidation over this year and 
next year precisely because the fiscal stimulus is going off. 
And that is an important point.
    But the other point that I made is, we do need to worry--
when unemployment stays high for an extended period of time, 
what you worry about is some of those workers are permanently 
scarred. They drop out of the labor force. They lose their 
skills, and so are not as employable as they were before. And 
one of the worst things that could happen is that some of this 
high unemployment becomes permanent, or structural, because 
that obviously is terrible for the people involved, and it's 
terrible for the productivity of the country, but it's also 
terrible for the deficit.
    So I think it is in fact shortsighted to say we need to--
you know, we can't do anything today to get the unemployment 
rate down because of the deficit, when by not taking those 
actions today you could make the deficit worse in the future by 
causing unemployment to be permanently higher.
    Representative Cummings. Thank you very much. I see my time 
has expired.
    Senator Klobuchar. Representative Burgess.
    Representative Burgess. Thank you. Thank you, Senator, for 
yielding to me.
    Chair Romer, are you familiar--the Business Roundtable and 
the Business Council on June 21st sent to Peter Orszag a list 
of things. The letter that accompanied it says it's a follow up 
to your request, Mr. Orszag's request, to both the Business 
Roundtable and the Business Council for examples of pending 
legislation and regulations that could have a dampening effect 
on economic growth and job creation. Surveyed our members to 
get their views. Attached is an executive summary and a 
detailed description of what they see as government initiatives 
that will inhibit growth, paraphrasing there just a little bit.
    Are you familiar with this document?
    Chair Romer. I am indeed.
    Representative Burgess. On page 10 of the document in the 
detailed portion, about the middle of the page, there's a 
paragraph devoted to Texas Title 5 permitting and new source 
review. And this is a complicated subject, and I know it is not 
really the subject of our discussion today, but let me use this 
as an example of some of the things that are happening at the 
level of the Administration that are having an inhibitory 
effect on investment certainly in my home State of Texas.
    On March 31 the EPA formally disapproved of revisions to 
the Texas Qualified Facilities Exemption Rule that allowed 
facilities to use certain types of control equipment to make 
changes in their operations without going through permit review 
as long as these changes did not result in a net increase in 
emissions.
    So we're not harming the environment anymore, but we were 
asking--we had some flexibility in implementing new equipment 
coming online in some plants like refineries that make refined 
product for gasoline that people depend upon in this country 
and need to have a stable and price secure source.
    So it goes on to say: Continued EPA objections could delay 
startup of certain projects already under construction or 
extend the permitting process for major new projects. In 
general, a flexible permit can provide a single emissions cap 
for part of an entire facility in lieu of permitting each 
individual unit built within the facility.
    Here's the important part: Similar rules exist in other 
states and have not been challenged by the EPA. Is Texas being 
singled out here? Or are other states that work under flexible 
permitting from the EPA, can they expect similar Draconian 
policies to be enacted in New Jersey, Pennsylvania, other 
states that do refining?
    [Submitted by Representative Burgess: Letter dated June 21, 
2010, from Ivan G. Seidenberg and James W. Owens to Hon Peter 
R. Orszag followed by the Business Roundtable report ``Policy 
Burdens Inhibiting Economic Growth'' appears in the Submissions 
for the Record on page 132.]
    Chair Romer. Well let me--I'm not going to try to get into 
the specifics of that particular rule. Let me actually, though, 
the general issue of regulation, certainly as I said we have 
been talking to the Business Roundtable. I think probably the 
most important thing in that letter was the first sentence that 
said, ``as you requested, here's the work that we've done.''
    I think what you're seeing is, there's been a lot of 
business outreach. One of the things that I'm at lots of 
meetings with are meetings with businesses----
    Representative Burgess. I don't mean to interrupt, but I'm 
going to run out of time. Can I--and maybe we can get back to 
you in writing on this, but this is a terribly important point 
back home. And the economy of Texas actually has done a little 
bit better than some other state economies. We're not a basket 
case yet, but we could be with this type of Federal burden 
coming down on the state permitting process.
    We want clean air in our State. There's no argument about 
that. This does not increase the pollution burden in the State. 
We are simply asking for flexibility. And right now you have 
got the governor of my state, Governor Perry, in a pitched 
battle with the EPA over this, and it does no one any good to 
do that. And certainly it is doing nothing to foster job 
growth, not even in my District. This is down in the Houston-
Beaumont area, but it is certainly going to affect the economy 
of our State.
    You talked about the health care bill, and I've just got to 
ask you. I mean, you don't really believe that that health care 
bill that was passed is actually going to lower the cost of 
health care in this country?
    Chair Romer. I absolutely believe it will slow the growth 
rate of health care costs, absolutely.
    Representative Burgess. It is a fantasy that really needs 
to be stamped out and rejected. We're through with the bill. 
The President got what he wanted. Let's be honest and admit 
we've driven costs through the roof.
    If you're really honest about what happened in that bill, 
we didn't include the doc fix in that bill. We didn't include 
it because it was $300 to $500 billion. When that bill comes 
due, do you really believe that the health care law that is now 
the law of the land is actually going to reduce the cost of 
anything for anyone in regards to health care in this country?
    We turn tons--tons of regulation over to the Federal 
agencies. No one has any idea what those rules are going to 
look like. Your Business Roundtable is concerned about the 
effect on jobs and job creation of the result of those rules. 
And if those rules become too onerous, employer-sponsored 
insurance will indeed become a thing of the past. If you like 
what you have, you can keep it will become a hollow promise.
    And the Federal Government will then have the burden of all 
of those health care costs that the private sector is now 
unloading. It will be cheaper to pay the $2000 fine than it 
will be to keep up with the rules and regulations that are 
coming out of Health and Human Services and the Center for 
Medicare and Medicaid Services.
    Chair Romer. Congressman, I just have to recommend that you 
read three wonderful studies done by the Council of Economic 
Advisers where we went through the provisions of the bill, and 
our analysis based on outside studies is that it will slow the 
growth rate of costs by one percentage point per year.
    The other thing I think we lose sight of the fact, the 
reason it was as hard as it was to pass is precisely because it 
included some very hard things that will help to slow the 
growth rate of costs: the excise tax on high-priced plans is 
something that health economists say can genuinely help to slow 
the growth rate of costs.
    The Independent Payment Advisory Board is something that we 
think can----
    Representative Burgess. It scares everyone to death.
    Chair Romer [continuing]. We think it is something that can 
help to slow the growth----
    Representative Burgess. And again, my time is up, but I 
just have to say one thing. Richard Foster, the actuary for 
CMS, came up with a figure that was available before we voted 
on the bill, but withheld from Congress, that said the cost of 
this thing was going to be much greater than what was being 
advertised.
    I have sent letters to Secretary Sebelius. Let us see the 
notes and e-mails and traffic back and forth of what went on 
between the actuary and the head at HHS before we voted on this 
bill. Why was Congress denied accurate cost information on this 
bill? I have not gotten any answer from the Administration yet.
    Chair Romer [continuing]. Can I say, you did get an answer 
from the Congressional Budget Office, which is one of the 
sources of high-quality information, and what they said, what 
we based a lot of our analysis on, is that it would slow the 
growth rate of costs and save a trillion dollars over 20 years.
    Representative Burgess. To paraphrase, they said: Oops, we 
goofed. I yield back.
    Senator Klobuchar. Thank you very much, Dr. Romer, and 
thank you for being here today.
    I am someone, as a former prosecutor, who believes in 
facts. And I have been hearing a lot of accusations that I 
believe are not fact-based. And you seem to me like you are 
someone who is pretty straightforward.
    Just to get one fact completely straight, is it true that 
we lost 3 million jobs in the last six months of the Bush 
Administration?
    Chair Romer. Yes.
    Senator Klobuchar. And then is it true that so far this 
year private-sector employment has increased by nearly 600,000 
jobs?
    Chair Romer. Yes.
    Senator Klobuchar. Okay. Well I think I would rather be on 
this trend, even though I will admit it is not exactly where we 
want to be yet, I think everyone knows that, but when we were 
back before we passed the stimulus package, before we passed 
the Recovery Act, before we started doing a number of major 
transportation projects in my State that I know were long 
overdue, and I guess this question of predictions. At the 
beginning of the year, I assume you had a counterpart under the 
Bush Administration that headed up the Council of Economic 
Advisers. Did they predict that year that the Administration 
was going to lose 3 million jobs?
    Chair Romer. No.
    Senator Klobuchar. Did they predict that they would gain 
jobs, actually?
    Chair Romer. I believe they did.
    Senator Klobuchar. Well we will have to look at that. I 
think that is interesting. Because people seem to be making a 
lot of hay out of things. When I look back at the time when we 
were basically on the edge of a financial cliff, I remember 
actually the country came together at that moment, good or bad, 
with President Bush and with John McCain, and Barack Obama, and 
made a decision that we needed to shore up the financial 
system.
    I believe we then continued with unemployment losses under 
the Bush Administration. President Obama took over. My memory 
of the facts is in the first month when he took over, while 
Bush was still President, we lost more jobs in this country in 
the month of January than the State of Vermont has people.
    We then passed the stimulus package. We evened things out, 
and we are now in what I consider a recovery that is taking too 
long. I would like it to go quicker, like everyone else.
    I will say that in my State the unemployment rate is better 
than the rest of the country. It's in the low 7 percent. But as 
Senator Schumer pointed out, when people are hurting in a 
household, if in their household no one has a job, it is 100 
percent unemployment.
    But the things that I have found helpful in our State is, 
first of all, the jump start of the stimulus, but then the 
belief in the private sector economy and working with small 
businesses. That is why I so badly want to get the Small 
Business bill passed. As well as a belief in innovation and 
American jobs, and America making things again and exporting 
them to the world.
    And I would like to see some shift in focus. I actually 
spoke with people in the White House about this today. This is 
a continuation of what the President talked about in the State 
of the Union, doubling the exports in five years, getting that 
R&D tax credit through Congress. A major focus on math and 
science. ``Nation building in our own Nation'' is what 
Minnesota native and New York Times columnist Tom Friedman 
calls it.
    So I would like you to shift a little bit and talk some 
about where you see this going in terms of some of the other 
initiatives outside of stimulus that the Administration is 
working on that you think will be helpful, starting with the 
export initiative.
    Chair Romer. I would be delighted to, because that is the--
you know, one of the issues that we have talked a lot about is 
the world is different. Before the Recession, we knew that we 
were saving very little. Consumers had very low savings rates.
    We were building a tremendous number of houses so that we 
had an overbuilding in housing. When we think about what the 
economy is going to look like as we come through, we are going 
to need--you know, we don't think consumers will go back to 
saving zero, and we anticipate that, you know, construction 
will be a smaller fraction at least for awhile. So the whole 
question is going to be: Where is the demand going to come from 
for all of our goods and services so that we keep people 
employed?
    And one of the things that we have identified for the 
President is, an obvious place where we can expand is exports, 
right? That creates demand for American products and keeps us 
employed here at home.
    And so we are doing a range of things. A lot of them are 
simple no-brainers. What we learned from the theoretical 
economics literature is that often it is just small, fixed 
costs that make it hard for a firm to get over that first hump 
of starting to export.
    And so just things like providing information through the 
SBA for small businesses. Or some more credit through the 
Import-Export Bank can make a big difference in getting firms 
that first export experience and getting them used to 
exporting. So we are taking a major initiative there.
    Secretary Locke is working with a tremendous amount of 
additional commercial diplomacy, taking people around the world 
trying to showcase American products.
    The State Department is taking a lot of the personnel we 
already have abroad and saying, can you get better at helping, 
you know, helping our firms sell their products and get used to 
exporting? And we absolutely think this goal of doubling 
exports is completely reasonable and something that will be 
very good for the American economy.
    Senator Klobuchar. Senator LeMieux and I have a bill that 
actually--which we're trying to include in the Small Business 
package. It's a bipartisan bill. As you know, he's a Republican 
from Florida. It went through Commerce unanimously. To try to 
beef up some of that work that the Commerce Department does 
with small and medium sized businesses, because I have seen 
huge success in our State along those lines.
    I did have one question that Senator Schumer was going to 
ask and then he had to leave early. He is introducing a bill to 
extend the HIRE Act for six months. It includes a tax credit 
for businesses that hire unemployed workers, 179 expensing that 
allows businesses to deduct expenses in the year they are 
purchased. By the way, that is something that I heard a lot 
about when I was out there with our small businesses. And the 
Build America Bonds.
    Is that something you think would be helpful?
    Chair Romer. You know, I will tell you that in the fall the 
Council of Economic Advisers did a lot of research on a jobs 
tax credit like the Schumer-Hatch tax credit that ended up in 
the HIRE Act, and we were very enthusiastic. We thought it was 
something that could have very good employment effects.
    And as Senator Schumer mentioned at the beginning, there is 
some evidence coming in about how many workers are eligible for 
it, and suggesting that it could be quite effective. I think it 
is an issue that we need to study to figure out, but what I can 
tell you is we are very enthusiastic, as always, to work with 
Congress on measures that will help to put people back to work. 
So we----
    Senator Klobuchar. So one last----
    Chair Romer [continuing]. Look forward to talking with you.
    Senator Klobuchar [continuing]. Clarification of a fact 
question before I turn it over to Senator Brownback.
    Representative Burgess was asking you about health care 
expenses, and I thought you made a good case that over the long 
term that this bill took on the difficult task of bringing down 
health care costs, which have been going up and up and up at 
the expense particularly of the self-employed and small 
businesses in this country.
    The CBO score of this, the nonpartisan CBO, which I know is 
relied on from my colleagues on the other side during the Bush 
Administration, that agency, to get accurate numbers, the CBO 
score ten years--is it true that the CBO score of this bill is 
saving $138 billion over 10 years?
    Chair Romer. Yes, it is.
    Senator Klobuchar. And for the health care bill, over 20 
years the score was that it would save $1.2 trillion? Are those 
the numbers you are talking about?
    Chair Romer. Those are exactly the numbers I am talking 
about.
    Senator Klobuchar. Again, I believe in facts. Thank you 
very much. I turn it over to my colleague, Senator Brownback.
    Senator Brownback. And I believe the taxes kick in in year 
one, and the benefits not to year four, Chair?
    Chair Romer. The important thing is I believe at the end of 
the ten-year window, it is still positive. So I think that's 
actually--that's not what's getting you the good number.
    Senator Brownback. Well I wonder what the next ten years 
will bring, when you have ten years of spending and ten years 
of taxes on that----
    Chair Romer. That's when it saves a trillion dollars, or 
$1.1 trillion.
    Senator Brownback [continuing]. Good Lord, I hope you are 
right.
    Chair Romer. I hope the Congressional Budget Office is 
right.
    Senator Brownback. Well, I want to talk about the 
uncertainty factor that's out there. Because surely you are 
hearing that. I know the President called a number of business 
leaders and they cited to him a series of uncertainties to 
explain why they're not employing. And looking forward, which 
hopefully you are, I'm sure you're saying look, how do we get 
these guys to put money in the game, men and women that are 
investing, creating jobs, trying to create an atmosphere for 
growth.
    One of the things that people look at, saying it is going 
to drive up costs, is the cap and trade proposed legislation 
that passed the House. In your Chapter 9 of the Economic 
Report, the President supports cap and trade, carbon emissions, 
to transform the energy sector.
    CBO questions the premises for cap and trade, and asks how 
policies reducing greenhouse gas emissions could affect 
employment. In the May 5th report they say emission reduction 
policies would decrease employment in energy-intensive 
industries. Quote, ``Eventually the economy would return full 
employment. Average wages would be lower than that that would 
otherwise prevail because of the higher cost of energy would 
reduce the productivity of the economy.''
    That is a direct quote of the CBO report. Given the 
uncertainty, given the difficulty we are having in the economy, 
would the Administration now say it is not time to pass cap and 
trade legislation?
    Chair Romer. So let me first talk about the uncertainty, 
because it is something that we hear a lot from business. And I 
think the important thing to realize is, what have been the 
major sources of uncertainty over the last 18 months?
    It has been the financial crisis. It's been the terrible 
Recession. That has been the number one thing we have worked 
with the Congress to try to turn around, what the Federal 
Reserve has been working on, what Secretary Geithner worked on 
with the Financial Stability Plan. And I think that has been 
incredibly important.
    Also, on the regulatory side, I think as was made--the 
statement was made very well, often----
    Senator Brownback. I'm going to run out of time. Do you 
have cap and trade--I just was asking you directly about cap 
and trade, and its uncertainty factor.
    Chair Romer [continuing]. What the President has said is he 
actually thinks getting a sensible energy legislation, like 
many other changes that we make, can help to resolve 
uncertainty because people understand what the framework is. 
And what we do know is we have a problem. We are dependent on 
foreign oil----
    Senator Brownback. Well even though CBO says this is going 
to drive employment down and wages down, you are for cap and 
trade at this point in time in our economy?
    Chair Romer [continuing]. We are for a comprehensive 
program that counteracts many of those things, by investing in 
clean energy, by trying to jump start the clean energy economy. 
We think a lot of--you know, that that can have very positive 
employment----
    Senator Brownback. Do you believe emission reduction 
policies would decrease employment in energy-intensive 
industries?
    Chair Romer [continuing]. I think it's going to affect 
different industries in different ways.
    Senator Brownback. What about that industry?
    Chair Romer. Like renewable energy, for example.
    Senator Brownback. What about in an energy-intensive 
industry?
    Chair Romer. I think we are going to have to develop it 
very well. That is something that the bills are being very 
careful to try to make sure that we minimize any costs on some 
industries----
    Senator Brownback. You're an economist. You're an excellent 
economist. You know this is going to drive down employment in 
energy-intensive industry.
    Chair Romer [continuing]. What it's going to do is to 
change the nature of what we produce. We think that is 
something we need to----
    Senator Brownback. Will it drive down employment in energy-
intensive industry?
    Chair Romer [continuing]. I think it is going to depend on 
how we design it. I think that is going to be the basic thing 
that has to happen.
    Senator Brownback. So you honestly believe it might not 
drive down employment in energy-intensive industry? It's what 
the CBO has said. It's what every economist that I've read or 
looked at----
    Chair Romer. So we're going to need to--I would certainly 
need to think more about the evidence. I think the other thing 
is, the whole thing the President is trying to do is to invest 
in new energy technologies, clean energy technologies----
    Senator Brownback [continuing]. Create winners and losers?
    Chair Romer [continuing]. Because that's the way you're 
going to counteract any--you know, if you're making carbon 
fuels more expensive, the way you can counteract that is come 
up with alternative energy.
    Senator Brownback. Will this make carbon fuels more 
expensive?
    Chair Romer. So certainly what a cap and trade system is 
designed to do is to, as the President has described, is to put 
a price on carbon.
    Senator Brownback. And it will make carbon-intensive fuels 
more expensive?
    Chair Romer. The--most likely. And then what you have to do 
is to think about how do you deal with those consequences. And 
you have--you know, you have to remember why we're doing this. 
No one would choose to do this----
    Senator Brownback. Well I understand why we're doing this--
--
    Chair Romer [continuing]. If there weren't a problem.
    Senator Brownback [continuing]. And I also watch Europe, 
what they're doing in backing away from some of these policies 
now because their economy is in such difficulty.
    And I'm thinking why shouldn't we be watching what is 
taking place there, if that is the same sort of track that we 
are looking at going down? And if they have already pursued 
that very aggressively and now they are saying, wait a minute, 
look at what it is costing us, and look at how difficult this 
is, maybe we ought to just take a moment and say, well, let's 
watch what happens here and let's look at this for a little 
while and see that we don't hurt ourselves in the process.
    And in an already soft economy, with all you have been 
saying today I believe you think this is still a soft economy--
I'm not quite sure, but I believe that is what you think?
    Chair Romer. It is still a soft economy. It is an economy 
that is recovering and, as Ms. Klobuchar described, we want it 
to be recovering faster.
    Can I actually say, the President has been having a very 
positive message here, which is: Let's be growing the 
alternative energy sector----
    Senator Brownback. I'm all for that.
    Chair Romer [continuing]. And that's why he's been 
investing----
    Senator Brownback. I'm all for growing the positive end of 
it. Just don't tax and kill the other end of it in the process. 
That's why I always think you do these things by investment and 
innovation, not by taxes and regulation.
    So you grow it, and you push it. We've got a hydrogen fuel 
cell locomotive we built in Topeka, Kansas. BNSF and the Army 
has done it. It's a beautiful example. But it's an investment 
in an innovation that isn't us telling the railroads you've got 
to go to this type of a technology. And, that's how you move 
through these.
    But on the deficit reduction, because I know you've got to 
be concerned about the deficit, you've said you're concerned 
about the deficit, it's being added to at $55,000 a second 
under the Obama Administration. We just had the Budget Director 
leave office. The Financial Times reports, June 27th, that he 
resigned, quote, ``frustration over his lack of success in 
persuading the Administration to tackle the fiscal deficit more 
aggressively.''
    And we're looking at nearly trillion dollar deficits 
throughout the next decade. I really hope you can tell us how 
we are going to start getting away from this borrowing 40 cents 
of every dollar we are spending right now and move in the 
positive direction we need to.
    Chair Romer [continuing]. All right, so I think we should 
very much separate the current deficit, which to a very large 
degree is being caused by the terrible Recession that we have 
been through, and our long-run fiscal problem which I 
absolutely agree is a serious problem and something that we 
need to be dealing with.
    I think if you talk to Director Orszag and you talk to the 
President, what you will hear is they are both in complete 
agreement about how important it is to deal with our deficit 
over time. That's why our budget charts a path to get the 
deficit down to 4 percent of GDP by 2015, and then sets up the 
fiscal commission encouraging it to then have a goal of getting 
it down to 3 percent of GDP, or even further.
    So that is a very carefully worked out plan, and something 
that absolutely is important. And it is going to take people 
from both sides of the aisle. That's why the fiscal commission 
is there. This is going to be a hard problem. No one side can 
solve it by themselves. And we absolutely need to reach that 
consensus.
    Senator Brownback. Thank you.
    Thank you, Madam Chairman. If you have a second round, I 
would like to add another set of questions.
    Senator Klobuchar. Wonderful. We will do that.
    I just want to go back here, along with my theme of getting 
to the facts. Senator Brownback was just asking about the Debt 
Commission, which the President as you know had to basically 
set up his own bipartisan Debt Commission with former 
Republican Senator Simpson, Democrat Erskine Bowles of North 
Carolina, and he had to do that because we were unable to get 
seven of the Republicans in the Senate who were on the bill to 
support the statutory Debt Commission.
    I was one of the Democrats that held out my vote until we 
made sure that we got that Debt Commission, held up my vote on 
the budget. I think it is incredibly important.
    My question on this is: What was the debt going in that the 
President inherited from President Bush?
    Chair Romer. Certainly the numbers are that before we ever 
walked in the door. I believe the deficit was going to be over 
a trillion dollars. So that was what we inherited. And 
obviously the debt then accumulated.
    Senator Klobuchar. And as the President has reported, 
decisions were made to shore up the economy when it was 
teetering on the financial cliff. And how much was added to 
that, then, for the deficit?
    Chair Romer. So in the short run obviously we spent the 
money that we spent on the Recovery Act. I think an important 
fact that we have in the Economic Report of the President, when 
you look at our long-run deficit, all of the actions that we 
take are about a quarter of one percent of that long-run 
deficit number that is, as you know, enormous. And so that they 
are a tiny, tiny fraction.
    And that makes sense. It's a one-time expenditure taken in 
an emergency, and that does not add to your long-run deficit. 
The kind of things that add to your long-run deficit are rising 
health care costs, which are an enormous part of the economy 
and grow over time, as our population ages.
    Senator Klobuchar. Very good. And I am very much looking 
forward to the suggestions of this Commission. I think it is 
incredibly important, as many of us do, to do something on this 
long-term debt. But I think it is very important we get the 
facts straight about the debt that the President inherited when 
he got in.
    Another fact clarification before I get to my questions. 
You were asked about the benefits and the costs associated with 
the health care bill. You and I went over the long-term cost 
savings with the health care bill. But just to clarify what the 
benefits are, if you are a senior you will--there was a 
question. Are there benefits? I think someone had said you 
won't get the benefits for four years. I thought it was very 
important to clarify for the record.
    In 2010, if you are a senior, are there in fact reductions 
on the costs of brand name prescription drugs? And additional 
help with closing the donut hole? Is that correct?
    Chair Romer. Absolutely.
    Senator Klobuchar. And is it true that the insurance 
companies will also be barred from limiting the total benefits 
Americans can use over the course of their lifetime, and that 
affordable insurance coverage options will also be made 
available through a high-risk pool for Americans? And that 
these are short-term goals of this--short-term provisions that 
will take effect immediately?
    Chair Romer. Yes. And I'd love to actually also add, the 
credits for small businesses are something that kicked in very 
quickly to help them cover the cost of health insurance for 
their workers.
    Senator Klobuchar. That's right, because right now small 
businesses are paying 20 percent more than big businesses for 
their health care. And they are going to be eligible for tax 
credits up to 35 percent, which I think a lot of small 
businesses don't know yet, but that will start in 2011. And 
then finally, that parents are able to keep their kids on their 
insurance until they're 26 years old. Is that correct?
    Chair Romer. That is correct.
    Senator Klobuchar. All right. We were talking about some of 
the long-term solutions here, and things that will be helpful 
to the economy. One of the things I have been very focused on 
is how we need to jump start and focus on our university 
research.
    It used to be that we had the Bell Labs, and AT&T Labs, and 
those kinds of things that would generate ideas and new 
products, and they would go right into the stream of commerce. 
We have gotten away from that, obviously. But what I am 
concerned about, I always think about the Beijing Olympics with 
the 2000 perfectly synchronized drummers in the opening 
ceremony. And I thought when I saw that, we're in trouble. And 
those drum beats are getting louder and louder and louder. And 
while they are building high-speed rail in Shanghai, we are 
still debating transportation policy and unfortunately not 
coming together as we need to as a country. And while Brazil is 
producing more and more engineers and scientists, we are 
falling behind.
    And so that is my major focus here. And one of the parts of 
this is how we generate more commercially focused university 
research. And I mean that in the best of ways, so that that is 
also focused on jobs, and that we use our universities and 
great learning institutions as incubators for new ideas that 
will become the next Google, or the next Medtronic in 
Minnesota.
    Could you comment on that, and how we can do that, and 
maybe improve the requirements of the America COMPETES Act?
    Chair Romer. I want to first agree with you completely on 
how important this innovative research is. When you talk to 
businesses, the thing that they say still gives us an edge in 
international competition is precisely because the new ideas 
are tremendously developed here. And so keeping that I think is 
incredibly important.
    If you go back to a speech the President gave very early 
where he challenged both the government and the private sector 
to make research and development of our GDP, to reach a number 
that we have not seen in decades, I think that is an important 
challenge. It is one that we started to meet through the 
Recovery Act, and it is something that the President is 
dedicated to continuing through our funding of things like the 
National Institutes of Health, the National Science Foundation.
    And I think your point about, as much as possible--you 
know, a natural role for the government is of course in doing 
what the private sector wouldn't naturally do, like the basic 
scientific research. But as much as we can help to make the 
innovations that we develop here then turn into industries here 
is incredibly important.
    And here I will just mention, one of the things that is not 
particularly exciting to many people is reform of the Patent 
Office, just making the way that we protect intellectual 
property when we discover these things is something that we 
think can help to make this process work better. And that is 
something that certainly we have been working on that I think 
is an important thing for us and Congress to work on together.
    Senator Klobuchar. Very good. Maybe someone asked you about 
this before. As you know, we have been struggling to pass the 
extension of unemployment benefits here. I did a bunch of 
events back in Minnesota for the week, everywhere from 
Brainerd, Minnesota, to Lanesboro, Minnesota, and I was really 
struck by the number of people that just came up to me. And 
even though we have a lower unemployment rate, if they 
weren't--didn't care about that. Maybe they had a neighbor that 
did--how important it is to make sure we have a safety net in 
place right now for those people who, through no fault of their 
own, have lost their jobs.
    Chair Romer. Absolutely. And the numbers that I gave in my 
testimony, that by the end of this month 3.2 million people 
will have exhausted their benefits because the program was not 
extended. And that is 3.2 million people whose lives will be 
devastated.
    But it is also a drag on the economy. That is, when people 
have unemployment insurance they spend it. And that is good for 
local businesses. It's helping to support their communities and 
help put other people back to work. So it is incredibly 
important.
    Both the Congressional Budget Office, private analysts like 
Mark Zandi, identify unemployment insurance as one of the 
stimulus things you can do that has the highest bang for the 
buck. And I think that is incredibly important for us to keep 
in mind.
    Senator Klobuchar. And one last question before I go back 
to Senator Brownback. One of the things I have noticed in our 
State is, because of the recovery, there are businesses that 
are actually still--are looking for workers, and they don't 
always match up with the location of where the workers are.
    I just want to make a pitch for three businesses that I 
just visited in the last few weeks, one in the last few months. 
Digi-Key, up in Thief River Falls, was literally hiring over a 
hundred people. They make innards for computers. New French 
Bakery in St. Paul, Minnesota, needed some people for their 
night shift. They literally don't have enough people to produce 
the bread. Monogram Meats in the very rural town of Chandler, 
Minnesota, that I visited just a few weeks ago, was also 
looking for some new employees.
    So I end with that to say, I guess one of my last questions 
will be, how do you deal with that when there are places that 
are looking for workers and that's not where the workers are? 
But secondly, to end with a positive note that there clearly 
are some signs of recovery across this country.
    Chair Romer. I think you are absolutely right that there 
are signs of recovery everywhere. And I think that is so 
important for us to keep in mind. But as we have said many 
times, it needs to be stronger. And I think that is certainly 
what we are focused on.
    On the mismatch, we have heard some. There have been some 
stories about mismatch in skills. You were describing people 
aren't where the jobs are. One of the great strengths of the 
American economy is its flexibility of its workforce.
    I would anticipate that when you tell people there are jobs 
in these areas, I can imagine many people very anxious to get 
there.
    In terms of skills----
    Senator Klobuchar. That's why I tried to do it, for the 
benefit of the C-SPAN viewers.
    Chair Romer [continuing]. Excellent.
    Senator Klobuchar. Like beef jerky. All right.
    Chair Romer. But there's also--you know, within the 
Recovery Act and certainly there's other legislation, improving 
our educational system and our job training, making sure that 
the skills that our children and our existing workers are 
developing are the skills that are going to be necessary in the 
21st Century, is a never-ending challenge. It is what every 
economy needs to do. We need to constantly be growing and 
changing, and that is something that we are very much committed 
to.
    And again, working with Congress to make sure that we're 
spending that money as effectively as possible.
    Senator Klobuchar. Thank you very much.
    Senator Brownback.
    Senator Brownback. Thanks, Madam Chairman.
    To start off with a softball for you, I am very pleased 
that the President set the November timeframe to address 
outstanding issues on the U.S.-South Korean Free Trade 
Agreement. I think that is where we can have a broad base of 
agreement. This is a positive for the economy.
    There are issues outstanding still related to autos and 
beef. It is my hope that those can be resolved. You can submit 
and aggressively push that before Congress. I would hope, as 
well, you would push the trade agreements with Colombia and 
Panama, as job creators as well, and that you would push those 
aggressively with the Congress. That would be my hope.
    Chair Romer. The President certainly in his State of the 
Union mentioned those, and he has singled out Korea at the G-
20. But I think you point out an important point, which is as 
we want to increase exports, opening up world markets through 
trade agreements is an important way to do that, and that is 
ultimately good for America and for our workers.
    Senator Brownback. And I think you can get some broad base 
of support.
    Madam Chairman, you are a noted economist. Is this a good 
time to pass cap and trade legislation?
    Chair Romer. With the--so, I mean the President has said 
that he thinks this is an issue that we need to face, and that 
is absolutely correct. So what is true is----
    Senator Brownback. So this is a good time to pass cap and 
trade legislation?
    Chair Romer [continuing]. We need to deal with our energy 
situation. We have--we are dependent on foreign oil. We have a 
problem of climate change. And there's the opportunities in 
alternative energy. Now is a propitious time to make sure that 
we----
    Senator Brownback. And it will drive energy costs up. 
Kansas City, Kansas, Board of Public Utilities projects that it 
is going to drive up their energy costs 25 percent to their 
customers over a near-term basis. That's over the next three 
years. Is that a good thing?
    Chair Romer [continuing]. Okay, so let's go back to say the 
legislation that was passed by the House, the Waxman-Markey 
legislation, the whole idea of making it a package is that you 
deal with any consequences in terms of industries, in terms of 
consumers, by----
    Senator Brownback. Fair enough.
    Chair Romer [continuing]. By dealing with it.
    Senator Brownback. How is Kansas City, Kansas, going to 
benefit from this?
    Chair Romer. So every American is going to benefit by jump 
starting clean energy, by breaking our dependence on foreign 
oil, and by not warming the planet to the point of catastrophe. 
All those are things that need to be dealt with.
    Senator Brownback. And my Kansas City, Kansas, their 
utility bills go up 25 percent. Their cost of gasoline in their 
car goes up to them on a near-term basis. And maybe some of 
them see a job opportunity. So by and large they are going to 
benefit from this in the near term in a soft economy?
    Chair Romer. So the key thing has been, right, how do you 
protect consumers? And so the original legislation had things 
like a rebate to the energy--you know, to the service providers 
to insulate consumers.
    We can have long discussions on how you design this thing 
to minimize impact on consumers, to get the benefit through 
clean energy, you know, preventing climate change, breaking our 
dependence on foreign oil, and deal with consequences. I would 
love to talk with you in detail about how do you design that in 
the best way possible. The President has said we need to do it.
    Senator Brownback. I would prefer you would talk to the 
American citizens that are looking at prices going up because 
of this. And my point to you is that, we need to talk about 
uncertainty, talk about why we're not creating the jobs we need 
to at this point in time. There's a positive. We can look at 
trade issues. I think there's a positive we can look at Chinese 
currency issues. I think that would be a helpful thing if the 
Administration would really push on China to float its 
currency. I'm with Senator Schumer on that. I believe the 
Administration is generally supportive of that policy. I think 
those are good bipartisan things.
    Cap and trade--even if you support the idea this is a bad 
time for it. That's when you get people keeping their 
investment on the sideline. Or you get people saying I'm not 
sure about whether or not to move this on forward.
    And it would be wiser, I would submit to you, let's invest 
in renewables. Let's do more ethanol. Let's do things that 
support wind energy. But not cap and trade that drives up your 
costs at a time when you have such a weak economy.
    I would really--I am not going to convince you to do that--
--
    Chair Romer. You have convinced me that we should talk 
more.
    Senator Brownback [continuing]. We will be happy to talk 
with you.
    Let me, because I'm going to run out of time, on the 
Council of Economic Advisers web site you talk about using the 
best data available.
    Chair Romer. Um-hmm.
    Senator Brownback. You have created this term ``jobs 
saved.'' ``Jobs created and saved.'' Now you've got well 
respected economists that believe this is a nonmeasurable 
number. I'm sure you're familiar with this.
    Chair Romer. Um-hmm.
    Senator Brownback. Harvard University Professor Greg Mankiw 
wrote on a blog: The expression ``created or saved'' which has 
been used regularly by the President's economic team is an act 
of political genius. You can measure how many jobs are created 
between two points in time, but there is no way to measure how 
many jobs are saved.
    Professor Allan Meltzer, critical in an op ed recently 
says: The Council of Economic Advisers shamefully embedded a 
number called ``jobs saved'' that has never been seen before 
and has no agreed meaning, and no academic standing.
    Now I am certain you are familiar with academic standing on 
numbers and terms. And I don't want to really dispute with you 
about the nature of the state of the economy today, but I think 
we should be on measurables that have been generally agreed to 
by the profession. And this one is not.
    Chair Romer. Actually I disagree fundamentally. Actually, 
both of those distinguished economists I'm sure actually 
understand the fundamental notion that any policy has to be 
judged relative to what otherwise would have happened.
    Allan Meltzer is a distinguished economic historian, and 
everything that we do is about counterfactuals. And in terms of 
how do you measure it, that is exactly what our report is 
about. We go through pages and pages of saying, how do we 
identify what would have happened otherwise? And therefore, how 
do you say what we think the contribution of the Recovery Act 
is?
    It is hard. It is not an easy thing to do. That is why we 
spend weeks writing these reports. It is why the CBO spends 
weeks. It is why the Federal Reserve is looking at this. It is 
why Mark Zandi looks at this. Everybody--I mean, it is a well-
defined concept. It's just hard. And it doesn't mean that you 
don't do it. Somebody has to say what's the effect of this 
policy? And it's just simply not possible to say, well, look at 
this point, look at that point. This is what the policy did.
    You need to know. You need to have some way of estimating 
what would have happened in its absence. It's the fundamental 
issue in any economic analysis of a policy measure.
    Senator Brownback. Of ``jobs saved''? But let me ask you 
quickly, on the G-20. They recently met and was strongly 
focused on government deficit spending. And it appeared to be 
saying that we are all concerned about it, but it did not 
appear that the Obama Administration was, of what came out of 
that meeting. And they are saying we need to get deficits under 
control.
    I would hope that the Administration would look at those 
push--that push by European governments, particularly that they 
faced in this recent debt crisis, that for most Americans saw 
that as a shot, a warning shot to us on the track that we are 
on. And, that you would put more emphasis--I understand your 
concern about the deficit, but a lot more emphasis.
    We just recently pushed the idea of doing a freeze on 
spending for this next year in the Republican appropriations, 
and trying to get the rest of our colleagues to go along with 
that as a way to get focused on this deficit. And I would hope 
the Administration----
    Chair Maloney [presiding]. Would the gentleman sum up? He 
is way over time.
    Senator Brownback. We did about ten minutes on Senator 
Klobuchar while you were gone----
    Chair Maloney. Oh, okay. Okay. All right.
    Senator Brownback [continuing]. So I was just saying, well, 
okay, I will do about ten. And I will sum up here. But my point 
being, that the G-20 is deeply concerned.
    They have confronted this debt crisis that is a crisis of 
confidence as much as anything. And we cannot let that come to 
the United States, have that crisis of confidence in the fiscal 
house in the United States. And I would really hope that if you 
were more aggressive on dealing with that, we would not 
confront that crisis of confidence moving on forward. And I am 
afraid it could come this way.
    Chair Romer. All right, so let me first respond by saying, 
you know, in our budget we talked about a nonsecurity spending 
freeze, because the President agrees that he thought that was a 
sensible strategy.
    On the G-20, there is no disagreement on the notion that 
our budget deficit needs to be brought down over time. We agree 
completely with the other countries of the world that that is 
an issue that we all face. And I have said before, I think one 
of the great, you know, lessons from this crisis is don't--you 
know, get your fiscal house in order in good times because you 
never know when you may need the ability to take care of an 
economy that is in trouble.
    But I think a fundamental issue that came up at the G-20 is 
the rate of exit. Because we do know that fiscal stimulus is 
having an important effect on the economy. And those 
distinguished economists that you mentioned, I can tell you 
from their textbooks, for example, Greg Mankiw's textbooks, he 
believes that government spending and tax cuts have an effect 
on the economy.
    And if you take away all of that too quickly, what you run 
the risk of is pushing the world economy back down into 
recession. So very much what Secretary Geithner and the 
President were talking about is, as we move toward fiscal 
consolidation, take into account what is happening in our own 
country, and what is the appropriate rate of moving in that 
direction.
    That was the only level on which there was any discussion. 
The overarching goal of getting our deficit under control, I am 
exactly with you. The President is with you. Director Orszag, 
Secretary Geithner, we are unified in the importance of getting 
that under control. That is why we strongly supported the 
bipartisan commission.
    Chair Maloney. Thank you very much. Congressman Snyder.
    Representative Snyder. Thank you, Madam Chair.
    Dr. Romer, thank you for your patience today. We have been 
running back and forth for votes. One quick question, if I 
might, and Mr. Brady is not here, but I am reading from his 
opening statement when he was talking about things that he 
considered bad things that President Obama and Congressional 
Democrats--of which I am one--have done.
    One of them is, he states, quote, ``The top tax rate on 
capital gains will increase from 15 percent this year to 23.8 
percent in 2013; while the top tax rate on dividends will 
skyrocket from 15 percent this year to 43.4 percent in 2013''. 
End of quote.
    I don't recall you recommending to President Obama that he 
sign that bill. I don't recall voting for that bill. In fact, 
that was President Bush's April 2001 Economic Plan that was 
adopted by the Republican Congress and signed into law by 
President Bush.
    Isn't that correct?
    Chair Romer. That is correct.
    Representative Snyder. Which Mr. Brady voted for. So when 
he talks about, and Republicans talk about this ``skyrocketing 
soon-to-come skyrocketing tax increase,'' it is a plan that 
they voted for.
    And one of the great weaknesses of that plan was that the 
numbers were gamed so that the 10-year and 20-year numbers 
would look better because it did come to an abrupt end. They, 
in my view, did not have the nerve to actually carry it out 
indefinitely.
    And so that is a plan that they voted for. They voted for 
skyrocketing tax rates, in their words, in 2013, not 
Congressional Democrats, and certainly not signed by President 
Obama, and certainly not recommended by Dr. Christina Romer.
    Chair Romer. Absolutely. And by structuring it the way that 
they did, it allowed them to hide the impact that it was going 
to have on the deficit.
    Representative Snyder. That was the big reason for it, yes, 
to frankly fool the American people.
    I want to get into this thing. We have used the word 
``stimulus'' and we have kind of ignored the word 
``countercyclical,'' but I want to play that I'm a teacher, if 
I might, which is probably not going to work, but maybe I will 
be a better teacher than a lemonade salesman, for Mr. Burgess.
    If this [illustrating with water bottles] was the 
consumption by state government before the recession, jobs drop 
off, that's what they're buying out of the economy now in state 
government.
    If this was the consumption by local government before the 
recession, and this glass is what they drop off. If this is the 
consumption by private corporations, and small business firms, 
and this is it after the recession begins. If this is 
consumption by individuals in the economy like myself who is 
about to borrow some money to have some work done on my house, 
and this is our consumption after the recession began. This 
illustrates the problem, I think, which is economy is about 
demand for product.
    And in all these components of the economy, demand has 
dropped. I can add on another one, which is international 
buyers. The same thing has happened there. That is demand for 
U.S. products before. That has dropped off.
    Now the only one we have tried to maintain, or even do a 
little better, is the Federal Government to be a counterweight 
to all this dropoff. And I want to make one point, and then one 
question.
    My point is, I don't understand what is wrong in the times 
of a downturn in the economy, why it has become so bad to talk 
about or advocate for something countercyclical to be a 
counterweight to this.
    My friends on the other side, they were fine to deficit 
spend to do a military runway in Iraq or Afghanistan, but 
somehow that money that goes to the Iraq air force base, which 
it did, to do repairs on the air base, but that's bad and not a 
good investment in national security. Or $50 million for clean 
water projects in Arkansas under the stimulus bill is bad, but 
to deficit spend for clean water projects in Iraq or 
Afghanistan is good.
    I don't get it, when you've got this kind of a situation. 
But here's my question. And somehow I got, I'd better give them 
credit, I got put on a Goldman Sachs mailer years ago, and I'm 
afraid to mention it because they'll probably pull me off, but 
is there something inherently different now about these 
components that's making them difficult, making it more 
difficult, or by choice they are not buying more product to get 
that up, back to the normal level? It's taking them longer.
    Are they making decisions, a deliberate decision, we're 
going to work on keeping our debt load lower this time around, 
because we've got some uncertainty out there? And so we're not 
coming back as fast? Whether you're local government, state 
government, a corporate entity, big or small, or an individual, 
and international?
    Is there something inherently different about this 
recovery, using my bottle now?
    Chair Romer. You are doing very well at your teaching.
    Representative Snyder. And now I am hidden behind bottles. 
[Laughter.]
    Chair Romer. So you make a couple of excellent points. One 
is just what's the notion of countercyclical policy? And it's 
precisely what the President has always said. At a time when 
the private sector is not buying things, the government has a 
very legitimate, essential role in counteracting some of that. 
And that is exactly what the Recovery Act was designed to do.
    The one thing I would say, though, is one of the key ways 
it was designed to do it is not just all the government 
spending, right? We gave very large tax cuts to consumers so 
that they would go out and buy. We gave unemployment insurance 
to consumers so they would go out to buy.
    We gave the 48C tax credits to businesses so they do more 
investment. So a whole bunch of that is in fact not in that 
cup, it is in all of your bottles. And the other thing you were 
mentioning that I mentioned when you were going is that the 
world is different coming out of this.
    We have a lot of consumers who are over indebted, and so 
that they may not go back--and we probably do not think they 
should go back to perhaps the very high spending ways from 
before the crisis. If consumers are never going to be all the 
way up to the bottle, you have to ask, well what's going to 
make sure demand equals? And that is why we talked a lot about 
exports. That's another source of demand.
    I have talked a lot in the economic report about 
investment. If we can get firms to do more investment, that is 
going to be something that holds up demand but it is good for 
our long-run productivity. That is why things like the Small 
Business Lending Fund, the Bonus Depreciation, the Zero Capital 
Gains for Small Businesses, that's going to encourage them to 
invest and be a source of demand for the economy.
    So you are absolutely right. We need to get demand up to 
the level of all those bottles, but I think the composition may 
be different as we come out of this crisis, and we need to be 
adjusting policies to try to support that every healthy what we 
call in the economic report, a rebalancing.
    Representative Snyder. Thank you, Madam Chair.
    Chair Maloney. Thank you very much.
    Dr. Romer, the long-term unemployment rate during this 
Recession is at an historic high. In your report, you mentioned 
that the historical relationship between unemployment rate 
increases and output declines did not hold during this 
Recession, and that the unemployment rate rose much more than 
expected given the decline in output.
    Do you still believe that this rule-of-thumb known as 
Okun's Law is holding?
    Chair Romer. That's an excellent question. It does go back 
to how did some of our forecasts not come to be. Part of it was 
what we discussed at length with Mr. Brady about the 
deterioration in the economy which was much faster than we or 
any private sector forecasters were calling for.
    But the other piece of that was an unusually bad behavior 
of unemployment. That given what has happened to GDP, the 
unemployment rate has risen more than would have been expected. 
And in the economic report we say it is probably about a point 
to a point-and-a-half higher than you would normally expect 
from that famous relationship called Okun's Law.
    I can't help but note it is named after a previous Chair of 
the Council of Economic Advisers, Arthur Okun. But anyway, this 
is certainly part of why the unemployment rate is so high, and 
higher than people had been expecting, is the breakdown in that 
relationship.
    The question is what is going to happen on the other side. 
So what we have been seeing in the last several months is GDP 
has started to grow again. The unemployment rate has come down. 
And I think that relationship is pretty much following the 
usual Okun's Law relationship.
    I think the one thing we of course all hope for is 
anything, sort of the bad residual that we got in the Recession 
at some point do we see firms suddenly hiring more, bringing 
the unemployment rate down more quickly for a given behavior of 
GDP. I think that is something that is hard to know, but that 
is certainly a hope that we can have that when this thing 
really gets going strongly, do you get some of that Okun's Law 
residual, if you want, back in the recovery phase.
    Chair Maloney. Well, many people have noted that during 
this Great Recession we have been very fortunate to have you 
and Ben Bernanke, two noted Depression scholars, working in the 
government and advising us.
    A hearing that we talked about that would be interesting, 
would be a hearing with you and Ben Bernanke on the Great 
Depression and the lessons that you learned from it.
    Some of my colleagues are arguing that we should look to 
Greece as a cautionary tale of sovereign overspending. Others 
are arguing that, given a low inflation rate, we are much more 
likely to end up with a lost decade like Japan faced. Some look 
at the tight monetary policies put into place during the Great 
Depression, which many believe prolonged the misery by 
preventing the flow of credit.
    What is the most appropriate lesson for us now? Is monetary 
policy too tight? What are the lessons that you feel we should 
be studying and listening to the most?
    Chair Romer. Well certainly I think many of the lessons 
from the Great Depression are actually things that we have put 
into practice in this Recession. I think it is no accident that 
Chairman Bernanke and the Federal Reserve took such 
extraordinary actions and were very creative in thinking about 
how do we deal with the freezing up of our credit markets, 
precisely because Chairman Bernanke had studied how devastating 
the evaporation of credit in the 1930s was.
    Likewise, what we learned in the 1930s is that a collapse 
of aggregate demand does indeed cause the economy to go into a 
tailspin. And exactly what we have tried to counteract through 
our policies is that decline in aggregate demand. That is where 
the motivation for the Recovery Act came from, and it is where 
the motivation from the expansionary monetary policies have 
come from.
    I think if I would take one lesson--it is actually a short 
note that I wrote last year--is actually from later in the 
Great Depression, from the experience of 1937. Because I think 
what we saw then is the economy was recovering, it was on 
track, and there was a desire to have both monetary and fiscal 
contraction, to basically get back to normal as fast as we can 
on the policy side.
    And exactly what we saw is another terrible recession in 
the middle of the Great Depression in 1938. So I think one of 
the things that we do need to be cautious of, it goes back to 
what we were talking about about the G-20, is everyone agrees 
policy has to go back to normal. We have to get our deficit 
under control.
    It is a question about when can the economy manage that. 
What is the right trajectory? Do you have a glide path? Or do 
you have a very quick adjustment? I think that is the lesson 
that I am certainly very aware of and thinking about as we go 
forward.
    Chair Maloney. Well actually the Senator and I had a 
personal conversation once that this would be a fascinating 
hearing. So I would like to welcome him to ask some questions 
on the Great Depression, the lessons we have learned, and have 
a little discussion about it, since we probably will not be 
having a hearing on it. Here is our opportunity.
    This was one of your requests for a hearing.
    Senator Brownback. Yes, and thank you. And you have been 
very kind to accommodate some of those.
    There is another school of thought that thinks that a lot 
of the requirements put in by the Administration during the 
Great Depression also added to the uncertainty of the 
environment during that period of time. And that is what I keep 
hearkening back to you on, because that is what I am hearing 
people say.
    Now I don't base that--I don't have a poll number to base 
that on. I don't have something else. But that you create that 
uncertainty out there. That's why I've been harping at you on 
cap and trade at this point in time, why you would push for 
something like that.
    That is one of the other lessons. Now I would appreciate 
your thoughts about when you read economists right about that 
point within the Great Depression. You must not think that was 
a particular problem during that era?
    Chair Romer. I feel very strongly that the main thing that 
went on in the Great Depression was a collapse in aggregate 
demand, and that is what caused the high unemployment. And the 
arguments that the regulatory regime was important I think are 
greatly overblown and actually not a very big part of the story 
at all.
    Let me come back--I mean the issues of uncertainty, you act 
as though not dealing with climate change, with our dependence 
on foreign oil, somehow resolves uncertainty. And in fact those 
are problems that we have to face. And many times by dealing 
with the problems you actually resolve the uncertainty.
    And I will give the example of our CAR rule, right? There 
was a lot of question about how were we going to enforce 
emission standards? California doing one thing. And it was 
actually industry that said: Can you just come together? We're 
happy to have a rule, but we need the certainty of that rule.
    And after we passed it, what you found was the truck 
manufacturers came and said we want one of those, too. So that 
oftentimes getting the legislation, getting things--actually 
setting down the rules of the road can help to resolve 
uncertainty. And that is the same with a comprehensive energy 
plan. We know----
    Senator Brownback. I will guarantee you----
    Chair Romer [continuing]. We're going to have to deal with 
it----
    Senator Brownback [continuing]. That if you put cap and 
trade in, you're going to get a big fight here. You're going to 
get a big fight in the country anyway. And you're not going to 
get the investment that you could get in renewables on an easy 
basis if you don't put cap and trade in.
    I'll give you an easy one. Why don't you raise the ethanol 
limit up to E15, instead of 10 percent ethanol? Domestic 
produced. Looks like it works pretty well. You open up to a 
renewable industry. You get bipartisan support for it. Why not 
pick those pieces like that that you can look at and you can 
say, now we could do something like that?
    Chair Romer [continuing]. But what the President has 
described is one of the ways--again, let me come back to by----
    Senator Brownback. You're not going to go with 15 percent 
ethanol?
    Chair Romer [continuing]. We are always happy to discuss 
things, and I'm sure Secretary Vilsack would be delighted to 
talk to you, as well.
    Senator Brownback. Well I would like for you to look at it.
    Chair Romer. We will certainly do that. But I do think 
the--pointing out what everyone knows, which is that we are 
on--again, it's like the budget deficit--on an unsustainable 
path in terms of our foreign consumption, or consumption of 
foreign oil, in terms of emissions. We're going to need to deal 
with it. By dealing with it, we actually get certainty. By 
putting a price on carbon, then people know how to make their 
investment.
    That can actually be very good for investment, because 
people know what they need to do. And it is in fact--you know, 
if you are worried about uncertainty, actually dealing with 
this, dealing with this problem that is not going to go away, 
can very much help to deal with it.
    Chair Maloney. I would say that finally acting on financial 
regulatory reform in many ways is making the economy more 
stable, as people now know the rules of the game to move 
forward.
    I would like to ask the question that I hear from my 
constituents, which is about a lack of access to credit, a lack 
of access to capital. We did pass a $30 billion loan pool that 
the Administration supported, which I think is important, but 
we are also reading that banks are holding onto excess 
reserves.
    Why are banks holding onto these excess reserves that they 
have and not lending? Why do you think that's happening? And is 
that what happened during the Great Depression? What happened 
after they recovered somewhat?
    Chair Romer. This is fun. This is--so one of the things 
that happened actually in 1937 was there were a lot of excess 
reserves, and what the Federal Reserve did was to change the 
reserve requirements and just declared that those were now 
required reserves.
    And what we discovered was, banks said, no, no, no, we 
wanted to be holding excess reserves. We've just been through 
the Great Depression. They were very nervous. And we actually 
saw them gathering more excess reserves around the new--above 
the new higher limit.
    So we do I think have to be careful about figuring out sort 
of what is driving bank behavior. I know Chairman Bernanke was 
also talking about what regulators were doing on the ground, 
and how the Fed was trying to talk to them about, you know, 
making credit-worthy loans when they were, you know--when there 
were possibilities to do so.
    So I do think that we do need to be careful as we go 
forward. But there is a certain amount of remembering what a 
terrible crisis we've been through, and how it was a searing 
experience, not just for American citizens but often for some 
of these small banks. That was a very frightening time for them 
as well.
    So you can imagine some of their behavior. I think what 
we're trying to do through the Small Business Lending Fund is 
exactly to make the banks have access to capital provided by 
the government at a good price, if they are willing to do 
lending as a way of making them feel more confident about doing 
lending. And we think that is a very sensible strategy.
    Chair Maloney. That is a strong argument for that. We could 
use some help in passing that bill in the Senate, Senator. I 
hope you would take a good look at it.
    Senator Brownback.
    Senator Brownback. I've taken a lot of good looks at that 
bill. The numbers I am seeing is it is going to drive down 
employment and drive up costs. But I understand we have a 
difference of perspective on that.
    I just want to thank the Chair for being here. I do hope 
you get a lot more aggressive on looking at this deficit. I 
don't want to see this crisis of confidence come to these 
shores. And your stance and your view on that would be very 
helpful to be aggressive on that so we don't see that.
    Chair, thank you for having such an open hearing. I 
appreciate that, and I appreciate your willingness to discuss.
    Chair Maloney. I am just going to keep talking about the 
lessons from the Great Depression, if it's all right with you, 
Senator.
    Do you think the Fed is favoring keeping prices stable over 
full employment?
    Chair Romer. So at this point, Madam Chair, I think it is 
very important to remember that the Federal Reserve is an 
independent agency, and I think one of the rules that we in the 
Administration follow is to not comment on Federal Reserve 
policy.
    Chair Maloney. Okay, well let me ask it a different way. 
Isn't the inflation rate well below the targeted level?
    Chair Romer. So that I think, I mean I think we can have a 
very interesting discussion on inflation. Because what is 
certainly true is the usual relationship is that when the 
economy has high unemployment the inflation rate comes down.
    We have absolutely been seeing that happen in this 
Recession. And certainly in the last few months, both the level 
of inflation and expectations about inflation are continuing to 
come down, and are getting to quite low levels.
    Chair Maloney. Is deflation a risk?
    Chair Romer. It is certainly, as the unemployment rate 
stays high that puts continued pressure on inflation. So, yes, 
it is a risk.
    Chair Maloney. Since the Fed can't lower the targeted 
federal funds rate--they've already lowered it to between zero 
and 25 basis points--to influence short-term interest rates, 
what other tools do they have in their arsenal to spur 
employment?
    Chair Romer. Well here I would mainly again I think the 
most appropriate thing would be for you to bring Chairman 
Bernanke in. I think certainly there have been reports in the 
press of various things that other countries have done. For 
example, we hear about quantitative easing, which is things 
like the Fed did last year when they bought a lot of mortgage-
backed securities and pushed down mortgage interest rates. So 
that is something that other countries have certainly been 
doing. That is an obvious additional tool that the Fed has 
certainly used in the past.
    Chair Maloney. Senator Schumer asked me to ask this 
question. He is introducing a bill that we passed in the House 
and the Senate called the HIRE Act that gave tax credits to 
employers to hire unemployed people, and he is putting a bill 
in to extend it for another six months.
    Do you believe this has had a positive impact on employing 
unemployed Americans? And do you believe the Administration 
might support such an endeavor?
    Chair Romer. So, Senator Klobuchar actually asked the 
same----
    Chair Maloney. Oh, she already asked it?
    Chair Romer [continuing]. Question. Certainly the answer 
that I had given then is that we were very big fans of the 
Schumer- Hatch, the HIRE Act, and that we thought that a jobs 
tax credit was something with very good job bang for the bucks 
that are on the line.
    And so it is something that we are going to be monitoring. 
Treasury just did a study on the number of workers that are 
eligible. I think it is something that we certainly are anxious 
to talk to Senator Schumer about and see what he has in mind, 
and to pull together the evidence.
    Chair Maloney. Many of my constituents ask me and others 
about whether or not we might be seeing a double-dip recession. 
What is your forecast for the economy? Will growth and 
employment gains in the second half of 2010 be better or worse 
than the first half? I am asked this question all the time, and 
I'm sure you are too.
    Chair Romer. The first thing to say that's important is I 
do not foresee a double-dip.
    Chair Maloney. Great.
    Chair Romer. I think what most of the private forecasters 
are saying is we have gone through a period of turbulence. The 
troubles in Greece that we talked about and slower growth in 
Europe are something that has certainly unnerved financial 
markets and caused some certainly lower growth abroad.
    I think what most people are thinking is that, like the 
Blue Chip Consensus lowered their forecast just a very small 
amount, but it's still basically steady. I should say that the 
Administration twice a year does an official forecast that 
comes out first with the budget, and then with the mid-session 
review that's going to be coming out certainly before the end 
of this month, and I would rather not get ahead of the 
Administration's forecast. But we will be coming out with our 
updated forecast.
    Chair Maloney. Thank you. I am hearing in my District, and 
I believe probably Senator Brownback is also hearing, the 
struggles of small businesses' access to capital. I am 
astounded at how many respected firms that have been in 
business for many, many years, who have always paid their bills 
and been outstanding businesses, tell me they can't find or get 
access to capital to hire and move forward. And it is a huge 
challenge. I am hearing it in the Democratic Caucus. I believe 
it is a problem all across the country.
    Could you tell us what the Administration is doing to ease 
that? Could you comment further on the Small Business Loan 
Guarantee Program? Are there any other initiatives or actions 
that we could take to help small businesses have greater 
liquidity so that they can move into the future with more 
confidence?
    Chair Romer. So I hear exactly the same things that you are 
hearing. And again, Chairman Bernanke gave a speech earlier 
this week talking about what they were seeing in their data; 
that, yes, small businesses are having trouble getting credit. 
And that is something that is impeding their growth and job 
creation.
    It is absolutely one of the headwinds that we face, and 
should be dealing with. When we did a very comprehensive review 
of this, what we thought was the best way forward was exactly 
the Small Business Lending Fund that is in the legislation. We 
thought cutting small business taxes, by having zero capital 
gains on equity that small business owners put in, we think 
that's a very sensible strategy.
    We proposed some small changes to the Small Business 
Administration Loan Program so that they could have bigger loan 
amounts. All of those we think are, from talking to small 
businesses, things that are likely to work. They are what we 
thought was the best shot we could take at dealing with this 
problem.
    So our main plea is to get it through the Congress, because 
we think it would be very helpful.
    Chair Maloney. Another area of concern--if you could 
comment on the economics of the unemployment benefits. Many 
economists have testified before us that all of this money is 
plowed back into the economy. It is not only the humane action 
to take care of unemployed workers, but it also has the effect 
of keeping them working, or looking for a job, instead of going 
on welfare and Social Security Disability, which is very costly 
to the country and certainly it's better for us to have them 
working to get employed. And every one of these dollars goes 
back into the economy.
    I believe we have 15 million unemployed Americans at this 
point. We have passed unemployment benefits in the House. We 
are hopeful that the Senate will pass it. And if you could, 
please comment on the economics of the unemployment benefits. 
This Committee did a study, because some of my colleagues on 
the other side of the aisle were saying that giving the 
unemployment benefits would in some way discourage workers from 
looking for a job, and our report showed just the opposite. 
They very much want a job, and they are frantic to find a job.
    So your comments on the importance of extending the 
unemployment insurance?
    Chair Romer. Absolutely. I think what your report found is 
I think very much what the economics literature finds. 
Especially to the degree that there are incentive, or 
disincentive effects from high unemployment insurance benefits, 
those are issues that apply in normal times when the 
unemployment rate is much lower at more normal levels.
    At a time when there is a lack of jobs, the main effect 
that it has is keeping people attached to the labor force. And 
I can't think of anything we want more, exactly what we're 
worried about is workers becoming discouraged, dropping off, 
losing their skills, and not looking for work.
    The other point that you made about its stimulus impact is 
again very much supported by the economics literature. I cited, 
while you were away, a study by the Congressional Budget Office 
that said that this was a very cost effective form of stimulus.
    I know Mark Zandi, it's at the very top of his list in 
terms of what he thinks has the best bang for the buck. And I 
think that is an important point to keep in mind. It is a 
program that is both humane to the people involved, but good 
for the overall economy, good for the people in the community 
that get the jobs producing the things that unemployed workers 
buy with their unemployment insurance.
    Chair Maloney. Well, my colleague has raised the concern 
that many of us share on the deficit and the debt, but can you 
put it in perspective, how much of this deficit problem is 
related to the Recession?
    Chair Romer. So I think an important thing is, in the 
short-run deficit, a very large fraction, or probably about 
half, is due to the Recession and half to the policies that we 
inherited from the past. And it makes sense. When you have a 
terrible Recession, tax revenues go down. Your expenditures for 
things like unemployment insurance go up. And that naturally 
tends to swell the deficit.
    In terms of our long-run deficit, however, it is a very 
small part of the long-run problem. The one-time actions that 
we take to deal with this emergency add just a tiny bit to your 
deficit over time. The much bigger determinant of the long-run 
deficit are things like health care costs, the aging of the 
population, things like that.
    Chair Maloney. Does my colleague have another question?
    Senator Brownback. I do. Because the unemployment insurance 
issue has come up here so much, wouldn't it be best if that 
were paid for?
    Chair Romer. No, is the simple answer.
    Senator Brownback. It's not best if it was paid for by the 
Federal Government?
    Chair Romer. What I would certainly say, the way we set up 
our paygo rules and the whole idea, we had our long discussion 
of countercyclical policy, I think if anything counts as an 
emergency it is unemployment of 9.5 percent. You will get no 
argument from me, we should pay for many things. We should deal 
with our deficit over time.
    I would not get held up over paying for a temporary one-
time extension of unemployment insurance.
    Senator Brownback. What if that is what is holding it up 
from passing? What if it would pass but for being paid for? 
Would you then still argue it should not be paid for?
    Chair Romer. I think the important thing is figuring out 
how it is paid for. Because--so that if you cut expenditures 
that would be aiding the recovery at the same time that you are 
doing the expenditures for UI, in terms of the over--you may 
help the particular people that are getting the funds, but in 
terms of the overall health of the economy you wouldn't have 
accomplished very much.
    Senator Brownback. So you would prefer it not pass if you 
have to pay for it? Is that--because that's the whole-- if I 
could, Chairman, that's the whole issue in the Senate. We did 
the doc fix after it was paid for. We did the homebuyer tax 
credit, after it was paid for. Those passed with unanimous 
consent. That means everybody agreed to it.
    This sits there ready to go, if it's paid for. And you 
would argue it would be better not to pay for it and it not 
pass?
    Chair Romer. There are certainly other ways to pay for it. 
And our budget had listed various things that could be used to 
pay for various priorities. And I think, you know, so obviously 
I think the important thing is, you know, we need to work to do 
this because we all agree this absolutely has to be done.
    And figuring out what we can do that will get this 
necessary insurance in a way that is good for the economy is I 
think something we can work on. And I am happy to work on the 
details with you.
    Senator Brownback. So you do support paying for it?
    Chair Romer. I support passing it. And that is certainly 
important, and I would love to work with you and talk with you 
about what's the best way to do that.
    Senator Brownback. Well I never seem to get a straight 
answer out of you. You're not opposed to not paying for it? Can 
I put it that way, and that's accurate?
    Chair Romer. No. You're putting words in my mouth. We're 
having a very sensible discussion----
    Chair Maloney. She wants it passed, and she thinks it's 
economically important.
    Senator Brownback. I agree with that.
    Chair Maloney. If you can find a pay-for, go find it.
    Senator Brownback. We found a pay-for. And you'd support 
that if we can find a pay-for?
    Chair Romer [continuing]. So at this point I don't know 
what we're saying, but what I do know is we absolutely need 
this extension----
    Senator Brownback. I agree with that.
    Chair Romer [continuing]. We absolutely--you know, I think 
there are many things that absolutely need to be paid for. An 
emergency extension of unemployment insurance is typically not 
paid for. The whole point is that it's an emergency, and that 
you actually need the stimulus that it provides.
    And if you wish to pay for it, and you think that's 
important, let's think about what's the best way to do that in 
a way that is economically sensible and doesn't counteract any 
of the way in which it is helping the economy. And that is what 
I stand for, and would love to talk with you more.
    Chair Maloney. Another important part of the economy is the 
housing. Housing is always a large part. In some ways it is as 
much as 25 percent. Do you think that the rebound in the 
housing was due to the the Homeowners' Tax Credit? Do you 
believe the Homeowners' Tax Credit was responsible for the 
movement that we saw in our economy in that area?
    Chair Romer. So what we certainly--I mean, what the 
Homeowners Tax Credit is it's like the Cash For Clunkers 
Program. It gives you an incentive to do the activity while 
it's in place.
    And what we found with Cash For Clunkers is, what that did 
is to bring demand for new cars, not just from a few months in 
the future, but it seems to be probably from very far in the 
future because we've seen car sales continue at a higher level 
than they were before the program.
    I think we don't know yet about the first-time homebuyers 
credit. It certainly seemed to--you know, we do see that people 
hurried up and bought their homes before it expired. I think 
what we don't know is from how far in the future they brought 
it forward.
    The big drop off in May says well maybe it didn't move it 
all that much from the future. So I think that is going to be 
the issue, and it is a hard one.
    Chair Maloney. And also we are facing the issue with the 
local and state governments, with the FMAP that many of us are 
supporting. Many economists are concerned that the budgetary 
shortfalls for our state and local governments will result in 
additional layoffs and service cuts at a time when our economy 
is very, very fragile.
    Was aid to the states a cost-effective and efficient form 
of stimulus? Did it work? We certainly appreciated it in New 
York State, but I'd like an overall statement.
    Chair Romer. You will absolutely get one from me. I think 
it is one where we had not had that much experience with that 
form of stimulus, so we did not have that much evidence to go 
on when we passed it. But certainly the conditions were dire 
and it was worth a try.
    I think all of the evidence since then is that it has been 
particularly effective. And I will actually cite our first 
quarterly report on the Recovery Act, because we highlighted 
the state fiscal relief, and actually did I think a very 
innovative study trying to really pin down causation. And what 
the results of that showed is that it was very effective. And 
looking state by state, we saw a very big impact.
    Chair Maloney. How does it compare to other components that 
were in the Recovery Act such as tax cuts? What was more 
stimulating? What was more effective in getting the economy 
churning again?
    Chair Romer. So I think we would put the state fiscal 
relief as one of the highest ones. I think when you look at 
conventional macro-economic models, typically tax cuts have 
less stimulative impact than direct government expenditures. 
And we would put state fiscal relief closer to the direct 
government expenditures.
    Chair Maloney. Do you think that additional state aid is 
warranted now in our financial recovery?
    Chair Romer. I do indeed. The numbers that you get from 
various sources will tell you that state and local governments 
have a--still have a budget deficit of about 1 percent of GDP. 
If they deal with that by cutting spending, raising taxes, that 
is going to be a contractionary force on the economy.
    And so it is something I think we can very sensibly--I 
think it would be money very well spent. It would help keep our 
teachers in the classroom, and our policemen on the beat.
    Chair Maloney. We passed a stimulus of $10 billion for 
teachers in a supplemental budget in the House, and we hope the 
Senate will act on that, too.
    One of the good news items that you had in your report was 
manufacturing, where we are gaining jobs. What do we need to do 
to sustain the current gain in manufacturing, the current 
manufacturing trend that is very positive? What do we need to 
do to keep this going?
    Chair Romer. You are exactly right, that manufacturing is 
one of the areas that we have seen coming back in the recovery. 
I think the numbers are we have added some 126,000 jobs in 
manufacturing. Industrial production is up something like 8.2 
percent in the last 11 months, and that is certainly a trend 
that we are very encouraged by and want to see continuing.
    What is one of the things that the President has talked 
about is how important it is to make sure that we--that our 
manufacturing continues to grow and evolve. He has identified 
clean energy technologies as an industry of the future, and one 
that we know China is working very hard on, Korea, many other 
countries, Germany, and he doesn't want to get left out. And 
that is part of what is I think so innovative about the 
Recovery Act.
    In our second Quarterly Report we actually talked about how 
about $90 billion of the overall Act went into the area of 
clean energy, broadly defined. And a lot of that was designed 
to help jump start this, to help make our transition to clean 
energy work better. And I think that is going to be something 
that is very important.
    Those public/private partnerships that we have been talking 
about in our report, and that the President will be 
highlighting later this week in Michigan, are--I think--an 
important step towards helping that sector come back very 
strongly.
    Chair Maloney. Well, I could listen to you all day, but I 
am supposed to be voting in another committee, and I am sure 
the Senator has other demands. But it was really fascinating. 
It is always a really wonderful opportunity to hear your 
report.
    We are honored that you discussed the economic outlook and 
your fourth CEA report on the Recovery Act before our 
Committee. We are deeply grateful. I look forward to your 
future reports on the leveraging between the private/public 
sector job creation projects. I found that very interesting and 
certainly support your desire to move forward with special 
reports on how they are affecting the various states. It is 
very clear that we need to expand every tax dollar we have and 
have each go further and further to help spur jobs. And the 
fact that you have been able to document that is very, very 
good news.
    I thank you for documenting that the Recovery Act is 
trending, moving this country in the right direction, and I 
would like to continue working hard in Congress to try to help 
move these proposals to have access to credit, and help create 
jobs in our country. And believe me, I do not think either one 
of us will stop until every American who wants a job has a job 
and our economy is strong enough to support their desires.
    I want to thank my colleague and good friend, Senator 
Brownback, for being here today, and all our colleagues. I 
thank especially you, Chairman Romer, for your outstanding 
report today and for your public service. Thank you so much for 
being here. We look forward to the next time. We hope we hear 
again from you soon. Maybe you can come back when you have your 
states reports and tell us what states have innovative ideas 
that are really working and helping us employ Americans.
    Thank you so much. This meeting is adjourned.
    [Whereupon, 4:40 p.m., Wednesday, July 14, 2010, the 
hearing was adjourned.]
                       SUBMISSIONS FOR THE RECORD

 Prepared Statement of Carolyn Maloney, Chair, Joint Economic Committee
    I want to welcome Dr. Christina Romer, the Chair of the Council of 
Economic Advisers, and thank her for her testimony here today.
    The Council of Economic Advisers and the Joint Economic Committee 
were both created by the Employment Act of 1946 and share an important 
history of providing the White House and Congress with analysis of 
economic conditions and economic policy.
    Our hearing today is on the economic outlook as well as the impact 
of the Recovery Act on the economy.
    In the first quarter of 2009, when the current Administration took 
office, the economy was facing the worst economic crisis since the 
Great Depression:

    <bullet>  GDP fell by 6.4 percent, the fastest rate in almost three 
decades.

    <bullet>  Monthly employment losses were higher than any seen since 
after World War II--in the first quarter of 2009, an average of 753,000 
jobs were lost each month.

    As you pointed out last fall, the shocks that hit the economy in 
the Fall of 2008 were larger than those that caused the Great 
Depression.
    As a result of the Recovery Act and other targeted spending 
programs passed in the 111th Congress, the economy has recovered over 
the last year:

    <bullet>  Private sector jobs were created in every month of 2010; 
and

    <bullet>  GDP grew for 3 straight quarters with forecasts of growth 
continuing for a fourth quarter.

    As the Chair of the JEC I have learned how valuable charts can be 
to present the story of the economy. This chart clearly shows that the 
Recovery Act had a clear impact on the economy's upward trend.
    I am especially pleased that you are appearing before us just 
before the JEC transmits its mandated response to the Economic Report 
of the President.
    Your testimony here today will inform us as we put the finishing 
touches on that report.
    Since January, the JEC has been laser focused on job creation, 
holding numerous hearings and issuing a number of reports on this 
topic.
    While the economy has expanded, consistent with the ERP's predicted 
growth for the first half of 2010, I worry that this recovery is still 
very fragile.
    It is clear that some of the differences between this recession and 
previous recessions might endanger this fragile recovery:

    <bullet>  First, although the unemployment rate has been higher in 
previous recessions, the long term unemployment rate (that is for 
workers looking for work for more than 6 months) is at historically 
high levels.

    <bullet>  Second, the median duration of unemployment is almost 6 
months--which means that the typical worker searches for six months 
before finding employment or possibly dropping out of the labor force.

    <bullet>  Finally, state and local governments are experiencing 
significant budget gaps as property and income tax revenues have 
plummeted while aid to unemployed families has spiked and demand for 
public education has risen.

    In order to spur the hiring process, it is clear that additional 
measures must be taken to create enough jobs for the nearly 15 million 
unemployed.
    I am dismayed by my colleagues who are listening to the political 
siren's call of short term cuts to the deficit instead of heeding the 
economic imperative of robust job creation. Make no mistake. The 
national debt is a serious challenge for our economy.
    We need to carefully craft a plan that is smart, effective and 
fair.
    A long-term strategy on debt reduction is essential for a strong 
economy for generations to come.
    As Fed Chairman Ben Bernanke told the JEC earlier this year, ``. . 
. maintaining the confidence of the public and financial markets 
requires that policymakers move decisively to set the federal budget on 
a trajectory toward sustainable fiscal balance.''
    However, efforts to translate this need into short-term spending 
cuts--especially cuts in unemployment benefits--have moved the deficit 
battle into the homes of the unemployed.
    This is bad economics and bad public policy.
    Dr. Romer, we thank you for your testimony and I look forward to 
working with you as the committee continues our focus on fixing the 
economy, helping struggling families, and, above all, putting people 
back to work.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            Prepared Statement of Representative Kevin Brady
    I am pleased to join in welcoming the Chair of the President's 
Council of Economic Advisers, Professor Christina Romer, before the 
Committee this afternoon.
    On November 2, 2010, the American people will judge the economic 
policies of President Obama and Congressional Democrats and may direct 
a midcourse correction, much as professors do with their students at 
midterm.
    President Obama took office under unfavorable economic 
circumstances, but so did Franklin D. Roosevelt and Ronald Reagan. The 
question is, has the White House met its economic promises, and are we 
positioned for long-term growth? Economists, job creators in the 
private sector and families should question:

    <bullet>  Have President Obama and Congressional Democrats spurred 
private investment and job creation with their ``stimulus'' spending, 
or have their policies added costs and uncertainty that have weakened 
the recovery?

    <bullet>  Have President Obama and Congressional Democrats met our 
demographic challenges and improved our long-term economic prospects, 
or have they diminished them through an ideologically driven expansion 
of the size and scope of the federal government, higher taxes, 
burdensome new regulations, and a reckless increase in federal debt?

    To help answer these questions, let us examine the record as 
measured by the standards that you set for yourself. In January 2009, 
you published an economic analysis of Obama's stimulus $787 billion 
plan and forecast that if Congress were to pass this plan:

        1. The unemployment rate would remain below 8.0 percent
        2. Non-farm payroll employment would increase to 137.6 million 
        by the fourth quarter of 2010.
        3. Ninety percent of the jobs created would be in the private 
        sector.

    Congressional Democrats passed the stimulus bill, and President 
Obama signed it into law on February 17, 2009. Now let us compare your 
promises with reality.

        1. Since the stimulus was enacted, the unemployment rate has 
        never been below 8.0 percent. It has been as high as 10.1 
        percent and was 9.5 percent last month.
        2. In June 2010, non-farm payroll employment was 130.5 million, 
        7.1 million payroll jobs short of your forecast.
        3. Since February 2009, only the federal government has added 
        payroll jobs. The private sector has actually lost 3.3 million 
        payroll jobs.

    Clearly, Obama's stimulus plan failed to work as you predicted. 
Instead, this recovery has been unusually weak for one after a severe 
recession. Average real GDP growth was 7.5 percent in first three 
quarters after the 1981-82 recession under Reagan compared with 3.5 
percent in first three quarters after the 2007-09 recession under 
Obama. In the first twelve months of recovery, the United Stated added 
3.1 million payroll jobs under Reagan, compared with a loss of 170,000 
payroll jobs under Obama. Similarly, the unemployment rate fell by 2.3 
percentage points under Reagan, while it increased by \1/10\th of a 
percentage point under Obama.
    Turning to the long-term consequences of the Democrats' economic 
policies, one sees higher taxes, heavy regulation, gaping federal 
budget deficits, and soaring federal debt.
    President Obama and Congressional Democrats are increasing taxes 
through legislation, their failure to legislate, and ``bracket creep'' 
in the non-indexed portions of the tax code, including the alternative 
minimum tax and excise tax on so-called ``Cadillac'' health care plans. 
Individual income tax rates will increase at the end of this year. 
Without a fix, up to 27 million families will become ensnared in the 
AMT.
    The top tax rate on capital gains will increase from 15 percent 
this year to 23.8 percent in 2013, while the top tax rate on dividends 
will skyrocket from 15 percent this year to 43.4 percent in 2013. 
Congress allowed the research and development tax credit to expire. 
Moreover, Congress levied new excise taxes on private health insurance 
plans, pharmaceutical and medical device manufacturers, and tanning 
salons.
    If these tax increases aren't enough to choke the private sector, 
President Obama and Congressional Democrats are still scheming to pass 
new energy taxes through ``cap and trade'' legislation. According to 
press reports, two Administration panels will recommend levying a 
value-added tax once the midterm elections are over.
    However, these massive tax increases are still not enough to fund 
Obama's extravagant federal spending. Based on Obama's Budget, the 
Congressional Budget Office projects that average federal outlays over 
the next decade will be 24.1 percent of GDP, 4.6 percentage points 
above the post-war average of 19.5 percent of GDP. The federal budget 
deficit will never be less than 4.1 percent of GDP. And publicly held 
federal debt will climb from 53 percent of GDP at the end of fiscal 
year 2009 to 90 percent of GDP at the end of fiscal year 2020.
    Our long-term fiscal outlook is dire. If current policies remain in 
place, the Congressional Budget Office projects that publicly held 
federal debt will soar to an incredible 947 percent of GDP by the end 
of fiscal year 2084.
    I look forward to discussing these issues with you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     Prepared statement of Representative Michael C. Burgess, M.D.
    Thank you, Madam Chairwoman.
    Here we go again. Another month, another set of facts and figures 
that are telling the American people what they already know--the so-
called Stimulus isn't working. WHERE ARE THE JOBS??? Companies aren't 
hiring at rates anywhere near where this Administration claimed they 
would be at this time. Businesses and individuals have the same outlook 
when it comes to this President--what's he going to do next to make it 
harder for us to move forward?
    An ill-advised and scientifically suspect drilling moratorium that 
is already seeing jobs shipped overseas, as rigs pull up anchor and 
sail to foreign seas. Looming EPA regulations on emissions that will 
have consumers seeing their energy bills skyrocket. Financial 
regulatory reforms that will take years to implement, causing 
uncertainty in an already fragile market and leading banks to be less 
likely to loan money, not knowing what future things this 
Administration will do to harm their capital outlooks.
    I asked Secretary Salazar whether the Administration had done any 
economic analysis of what this drilling moratorium would do to job 
outlook in the Gulf region. To date, we have gotten no response. I can 
only assume that this hasn't been done, or the Administration would 
know, as the New Orleans Times Picayune reported, that each job in 
energy exploration supports an additional 4 jobs providing supplies and 
services. Kill 5 jobs for the price of 1--there's a statistic you don't 
hear coming out of the White House.
    Sound economies need stability, and this President has provided 
anything but. He can claim to be ``pro-business'' all he wants, but 
with continued talk of Card Check and other pro-unionizing regulations, 
businesses know they can't afford to take any risks right now. 
Congressional Democrats even inserted a provision in the War 
Supplemental essentially forcing state and local fire and police 
departments to unionize--regardless of whether workers in those 
departments have expressed any interest. Actions speak louder than 
words, and the actions of this Administration indicate one thing--this 
President and the people he has put in place throughout the government 
have yet to see a rule or regulation that they aren't in favor of 
passing, and each rule and each regulation adds cost to the price of 
doing business.
    The Business Roundtable recently sent the White House a report of 
exactly what this President's policies are doing to businesses around 
the country. In a letter to Peter Orszag, Ivan Seidenberg, CEO of 
Verizon, and James Owens, CEO of Caterpillar Inc., said business 
leaders are ``increasingly concerned that political expediencies of the 
short-term harm our ability to partner with government to create 
policies that foster growth.'' Jamie Dimon, CEO of JPMorgan told the 
White House ``Punishing whole industries, whether you were reckless or 
not, just isn't the way to do things.'' And Dan DiMicco, CEO of Nucor 
Corp., told The Wall Street Journal, ``There's this common concern . . 
. that we're not doing the right things yet, and it's showing up in the 
jobs numbers.''
    One reason this Administration is likely so disconnected with the 
reality of the private sector is that so few of the President's top 
advisors have any real-world experience. Professors and Academics, 
people who've spent the bulk of their careers in government--that is 
who we have dictating to the private sector how CEOs should be running 
their businesses, and that is a large part of why businesses 
overwhelmingly resent the mandates being thrown at them by this 
Administration. Maybe if the President started hiring more CEOs in his 
cabinet like past Presidents from both parties have done for decades, 
he would start getting the kind of advice needed to allow the private 
sector to finally grow.
    Further cause for dismay is the Council of Economic Advisers' 
latest Economic Impact report admits that any analysis of job creation 
in each state in this report is ``speculative and uncertain.'' After 
spending hundreds of billions of dollars to ``stimulate'' the economy, 
a year and a half later we can still only ``speculate'' on job growth. 
There either have been or have not been jobs created by the stimulus. I 
don't need to speculate, all I have to do is look at the unemployment 
numbers that have been stagnant under this President. The Stimulus was 
a failure. I don't have to speculate about it.
    President Obama's philosophy in steering this economy seems to be 
taken directly from Lewis Carroll's Alice in Wonderland. When talking 
to Alice, Humpty Dumpty tells her ``"When I use a word, it means just 
what I choose it to mean--neither more nor less.'' Further, the 
Cheshire Cat might provide some insight into the game plan for this 
Administration's policies:

        ``Would you tell me, please, which way I ought to go from 
        here?''
        ``That depends a good deal on where you want to get to,'' said 
        the Cat.
        ``I don't much care where--'' said Alice.
        ``Then it doesn't matter which way you go,'' said the Cat.
        ``--so long as I get SOMEWHERE,'' Alice added as an 
        explanation.
        ``Oh, you're sure to do that,'' said the Cat, ``if you only 
        walk long enough.'' (Alice in Wonderland, Chapter Six)

    This Administration has been playing fast and loose with words, 
facts and figures in relation to the economic outlook of this country 
since it came into office 18 months ago. The American people are 
catching on. The rhetoric needs to stop.
    With that, I yield back.






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  <all>

</pre></body></html>
